<html>
<title> - U.S. SEAPORT SECURITY</title>
<body><pre>[Senate Hearing 106-1137]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 106-1137
 
                         U.S. SEAPORT SECURITY
=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 4, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









                        U.S. GOVERNMENT PRINTING OFFICE
86-533                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 4, 2000..................................     1
Statement of Senator Hollings....................................     2
    Prepared statement...........................................     3
Statement of Senator McCain......................................     1

                               Witnesses

Graham, Hon. Bob, U.S. Senator from Florida......................     5
Hart, Clyde J. Jr., Maritime Administrator, U.S. Department of 
  Transportation.................................................    16
    Prepared statement...........................................    18
Kelly, Hon. Raymond W., Commissioner, U.S. Customs Service.......    21
    Prepared statement...........................................    23
Loy, Admiral James M., Commandant, U.S. Coast Guard..............    12
    Prepared statement...........................................    15
Nagle, Kurt J., President, American Association of Port 
  Authorities....................................................     9
    Prepared statement...........................................    11
Robinson, Hon. James K., Assistant Attorney General, Criminal 
  Division, Department of Justice................................    24
    Prepared statement...........................................    25
Tousseau, John, Executive Board Member, International Longshore & 
  Warehouse Union................................................    26
    Prepared statement...........................................    29

                                Appendix

Wytkind, Edward, Executive Director Transportation Trades 
  Department, AFL-CIO, Prepared statement........................    41











                         U.S. SEAPORT SECURITY

                              ----------                              


                       WEDNESDAY, OCTOBER 4, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The Committee meets today to 
hear from witnesses on the findings and new recommendations of 
the Interagency Commission on Crime and Security in U.S. 
Seaports.
    In April 1999 the President established the Interagency 
Commission to look into the growing problem of crime and 
security shortfalls in U.S. seaports. The President asked the 
Commission to evaluate the nature and extent of serious crime 
in seaports, as well as looking into the effectiveness of 
current security measures.
    After months of delay, the Commission issued its final 
report on September 7, 2000. While the Commission was not able 
to determine the full extent of serious crime at seaports, it 
did report on 20 findings and made recommendations addressing 
each of those findings. The Commission surveyed seaports on the 
East, West, and Gulf Coasts, as well as the Great Lakes, and 
found significant criminal activity at each.
    The Commissioners determined that seaport crime encompasses 
a broad range of crimes. These include the importation of 
illicit drugs, contraband and prohibited or restricted 
merchandise, stow-aways and alien smuggling, trade fraud and 
commercial smuggling, environmental crimes, cargo theft and the 
unlawful exportation of controlled commodities, ammunitions, 
stolen property, and drug proceeds.
    These findings leave little doubt that crime in our 
Nation's seaports is a serious problem that has impacted well 
beyond our port cities. For example, a car stolen in Kentucky 
on Tuesday could be on its way out of the country through the 
Port of Charleston on Wednesday.
    It should be noted that, based on the Commission's 
findings, the same vessel taking that car out of the country 
may have in its inbound voyage brought in illicit drugs, 
counterfeit merchandise, or illegal aliens that will go 
undetected due to the lack of adequate controls at our Nation's 
seaports. Further, the Commission's rating of security at the 
seaports surveyed, described as ranging from poor to fair and 
in a few cases good, must be taken seriously by ports, 
transportation workers, and federal, state, and local agencies 
involved in the operation and control of our seaports. Action 
is needed to address the many identified problems and security 
shortcomings.
    I want to thank all the members of the Commission for their 
efforts, and I look forward to hearing more on their findings 
and recommendations from several of those members here today.
    I'm also interested in hearing from our other witnesses, 
who I understand share concerns raised by the Commission, but 
are also very concerned about how the Commission's 
recommendations will be implemented.
    I know of no Member of Congress who has been more aware and 
more involved in this issue than my friend from South Carolina. 
Senator Hollings because of personal experiences, has been 
involved in these issues for many years. I appreciate his 
leadership and efforts to bring about at least some solutions 
to these very difficult issues, and I would like to turn the 
hearing over to Senator Hollings at this time.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very much, Mr. Chairman. I have 
been looking at a map earlier this morning to find a port on 
the East Coast of Mexico. Altamira is the biggest one I can 
find, and the reason I was doing that was to try to bring into 
focus the importance of your calling this particular hearing. 
What happens is, if I walk across from Tijuana to San Diego, 
I'm stopped. I've got a coordinated policy. I'm checked 
individually, my luggage and everything else of that kind. Same 
thing coming from Juarez into El Paso.
    If I fly from Mexico City and land in Phoenix, Arizona, 
there is a coordinated security policy there, both the customs, 
immigration and otherwise. In fact, the FAA really sets out the 
security policies that have got to be followed by the various 
airlines. They look the policy over, they inspect it, they make 
sure the security procedures are sound and effective.
    But if I load up one of these containers that can carry as 
much as 80,000 pounds or 40 tons, at the Port of Altamira, and 
if I load up 100 of those containers with cocaine, under the 
facts and the findings, wherever the hundreds of those 
containers come in, whether it is to Charleston, New York, or 
wherever, 99 of them will not even be looked at. Ninety-nine 
will not be looked at, not even inspected. There is no 
coordinated policy.
    We are in one heck of a fix, and we truly are indebted to 
our colleague, Senator Bob Graham of Florida, who has bought 
this to our attention, instituted the Commission study and 
finding. I know he wants to testify, so we have got a lot of 
things to comment upon here. But what we really are trying to 
do, you and I at the Committee level, is fashion a policy from 
these recommendations that is as sound as the security policies 
followed by any airport, for any city like El Paso, or San 
Diego, or otherwise, coming across our land borders. In 
particular we must protect against threats of terrorism, as 
well as the drugs that come in through our sea ports. Nobody is 
going to fly into New York and bomb it, but it would be very 
easy to come into these ports and spread viruses or other 
threats, such as chemicals, or put in some sort of explosive. 
But I am interested in hearing our witnesses so let me put my 
statement in the record and yield to our real leader here, 
Senator Graham.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Mr. Chairman, I would like to thank you for scheduling this hearing 
at this late date. I know that it is very late in the session, and I 
know that it probably isn't all that important to your seaports in 
Arizona, but I think that this is an issue that is important to the 
general security of this nation.
    Our seaport system is really straining at the seams. We seem to 
have larger and larger ships, coming into port with fewer and fewer 
sailors, carrying more and more cargo, and handling it with a fraction 
of the number of longshoremen. The container business has been growing 
annually a clip of 5 to 7 percent a year, and our overall maritime 
trade volume is expected to double by the year 2020.
    Currently, the major agencies charged with responsibility for 
seaport security are already overextended and it is inconceivable given 
current trends that we will be able to cope with a doubling in cargo 
volume in the next twenty years.
    Seaports are international borders. I know the average man on the 
street would consider our international airports, or our land borders, 
to be actual borders, but a lot of people do not picture a seaport as 
an international border that needs to be protected in the same fashion 
as the southwest land border, or as an international airport. Senator 
Graham was the first in Congress to recognize the need to bolster 
security at seaports, and I would like to commend him for his work on 
this issue. He has problems in Florida with theft and drugs, and his 
state is aggressively dealing with the problems. The problem is, that 
as soon as we enhance security there in Florida, the criminal activity 
will move right up the coast. Senator Graham was able to convince the 
President that this issue deserved more attention, and an Interagency 
Commission on Seaport Crime and Security was established to review the 
status of seaport security in the United States.
    Well the review is in and the report identified serious security 
concerns at U.S. seaports. The Commission concluded that crime and drug 
smuggling at U.S. seaports are high, and that better coordination among 
various law enforcement agencies are needed. The Commission recommended 
that voluntary minimum physical infrastructure guidelines be 
implemented. Such guidelines would include practices for physical 
seaport security, provisions that would restrict access to sensitive 
areas, vehicular access and potential restrictions on carrying 
firearms. The report also acknowledged that seaports are highly 
vulnerable to terrorism, and that a potential terrorist attack could 
cause substantial damage at our ports. The state of security was 
generally rated as poor to fair.
    I would like to commend the three co-chairs and the staff who 
worked on the document, they did an excellent job. Many of the 
recommendations of the report have been incorporated into S. 2965, the 
Port and Maritime Security Act, which Senator Graham and I introduced 
last month. I look forward to working with members of the Committee and 
the various industry groups in order to reach some consensus on 
improving seaport security.
    Let me also be clear that our seaports are not the only ones to be 
faulted, many of them have worked to enhance their security. Criminal 
activity at U.S. seaports includes importation of drugs, contraband, 
and illegal merchandise; stowaways and alien smuggling; trade fraud and 
commercial smuggling; environmental crimes; cargo theft; and the 
unlawful exportation of controlled commodities, munitions, stolen 
property, and drug proceeds. Many of these violations are violations of 
federal law. Additionally, the federal government also has the 
responsibility of protecting the public from threats of terrorist 
activity and in ensuring that our transportation strategic needs are 
not sabotaged. So, the federal government also has a large role to play 
in seaport security, but we need to work together with the ports 
themselves and the local community to do this.
    A recent report on international cargo security practices, prepared 
by the U.S. Department of Transportation and issued last May, indicates 
that drug trafficking and money laundering are international problems 
that take advantage of the vulnerabilities in the transportation 
system. At our ports high container volumes and limited inspection 
resources result in statistically low probability of detection, with 
most container facilities being able to inspect less than one percent a 
day. That same report also indicates that organized crime has invested 
in the transportation industry, and owns or controls its trucking 
companies. So not only can they use the transportation system, they can 
enter it, and monitor the progress of their illegal activities. In 
essence, the floodgates of trade are open to criminals.
    For instance, in my own state, the Port of Charleston which is the 
fourth largest container port in the United States, until this month 
Customs officials had no equipment even capable of x-raying intermodal 
shipping containers. Prior to the receipt of the new x-ray equipment, 
Customs, which is understaffed to start with, must have physically 
opened containers, and requested the use of a canine unit from local 
law enforcement to help with drug or illegal contraband detection. This 
is not acceptable.
    The Commission found that seizures at the twelve seaports accounted 
for 56 percent of total cocaine, 32 percent of marijuana, and 65 
percent of heroin seizures carried in commercial trains, planes, and 
trucks at all U.S. ports of entry nationwide. Yet, we have done 
relatively little, other than send in an undermanned contingency of 
Coast Guard and Customs officials to do whatever they can.
    Practically speaking, the Customs Service because of fiscal 
constraints has focussed its oversight on policing cargo entry, and the 
Coast Guard, also constrained by budgetary limitation, has tended to 
focus more resources on water-side activities. At U.S. seaports, the 
federal government invests nothing in infrastructure, other than the 
human presence of the U.S. Coast Guard, U.S. Customs Service, and the 
Immigration and Naturalization Service, and whatever equipment those 
agencies have to accomplish their mandates. Physical infrastructure is 
provided by state-controlled port authorities, or by private sector 
marine terminal operators. There are no controls, or requirements in 
place, except for certain standards promulgated by the Coast Guard for 
the protection of cruise ship passenger terminals. Essentially, where 
sea ports are concerned we have abrogated the federal responsibility of 
border control to the state and private sector.
    By way of comparison, in the aviation industry, the Federal 
Aviation Administration (FAA) is intimately involved in ensuring that 
security measures are developed, implemented, and funded. The FAA works 
with various federal officials to assess threats directed toward 
commercial aviation and to target various types of security measures as 
potential threats change. Currently, each air carrier, whether a U.S. 
carrier or foreign air carrier, is required to submit plans to meet its 
security needs. Air carriers also are responsible for screening 
passengers and baggage in compliance with FAA regulations. The types of 
machines used in airports are all approved, and in many instances paid 
for by the FAA. The FAA uses its laboratories to check the machinery to 
determine if the equipment can detect explosives that are capable of 
destroying commercial aircrafts.
    At land borders, there is a substantial investment in security by 
the federal government. In TEA-21, Congress approved $140 million each 
year for five years for the National Corridor Planning and Development 
and Coordinated Border Infrastructure Program. Activities under this 
program include improvements to existing transportation infrastructure 
that facilitate cross-border vehicles and cargo movements; construction 
of highways and related safety enforcement facilities that facilitate 
movements related to international trade; operational improvements, 
including improvements relating to electronic data interchange and use 
of telecommunications, to expedite cross border vehicle and cargo 
movements; and planning, coordination, design and location studies. 
While not all of the funds provided to National Corridor Planning and 
Development account are used directly to address security concerns, the 
funds help contribute to the mandate of conducting security. 
Additionally, the Immigration and Naturalization Service is provided 
funds to erect physical security at land borders.
    We need to do better at our seaports. The public deserves better, 
and I look forward to working on this in the future to make sure that 
we do better with our system of seaport security.

    The Chairman. Senator Graham, welcome. Thank you for the 
great effort you have made on this issue. I understand very 
well that this issue in your home State of Florida is one of 
very compelling importance. We thank you for your leadership 
and all of your efforts on this issue, and welcome you before 
the Committee.

                 STATEMENT OF HON. BOB GRAHAM, 
                   U.S. SENATOR FROM FLORIDA

    Senator Graham. Mr. Chairman, Senator Hollings, let me 
first express my appreciation to you for holding this important 
hearing, particularly at this very congested period of our 
Congress, on the important subject of seaport security and the 
focus that you will give to the recent report issued by the 
Interagency Commission on Crime and Security in U.S. Seaports.
    I would like to take this opportunity to thank the 
President for his leadership in establishing the seaport 
Commission, and the members of the Commission for the 
outstanding work which they have completed and have now 
presented to us. Thank you very much for the advance position 
that you have afforded us to consider these important matters.
    Over the past 17 months, the Commission has uncovered a 
wealth of information about security shortfalls and crime at 
our seaports. Their work will be of great benefit to the 
Congress and the administration as we seek to address the needs 
of America's seaports.
    A little background. In early 1998, in response to almost 
daily reports of crime and narcotics trafficking at Florida 
seaports, and following some personal experiences I had during 
a day working with the Customs Service at Florida's Port 
Manatee on October 14, 1997, I began an investigation of the 
security situation at America's seaports.
    At that time, and perhaps even more today, I was very 
concerned that our seaports, unlike airports and, Senator, I 
appreciate the comments you have just made drawing some of 
those distinctions--lack the advance security procedures and 
equipment that are necessary to prevent acts of terrorism, 
cargo theft, drug trafficking and other illicit activities at 
seaports.
    In addition, although seaports conduct the vast majority of 
our international trade, the activities of law enforcement and 
trade processing agencies such as the Coast Guard, Customs, the 
Department of Agriculture, FBI, and state and local agencies 
are often uncoordinated and fragmented. Taken together, this 
lack of security and Interagency coordination at U.S. seaports 
presents an extremely attractive target for criminals and a 
variety of criminal activities.
    Why do I believe that seaport security is such a critical 
problem? First, U.S seaports conduct 95 percent of the Nation's 
international trade, and over the next 20 years the total 
volume of imported and exported goods at seaports is expected 
to increase three times.
    Second, the variety of trade and commerce carried out at 
seaports has greatly expanded. All cargo, containerized cargo, 
passenger cargo, tourism, intermodal transportation systems, 
and complex domestic and international trade relationships, 
have significantly changed the nature and conduct of seaport 
commerce.
    Third, this continuing expansion of activity at seaports 
has increased the opportunities for a variety of illegal 
activities, including drug trafficking, cargo theft, auto 
theft, illegal immigration, and the diversion of cargos such as 
food to avoid safety inspections.
    Seaports are also the bridge between international and 
domestic commerce. If that bridge is not secure, it can cause a 
sag in our economy that has the potential for even more serious 
economic consequences.
    In the face of these new security challenges, it appears 
the United States port management system has fallen behind the 
rest of the world. Unlike other developed trading nations, 
where seaports are a component of the national transportation 
system, the United States port system is largely a local 
concern, often under the control of local or special 
governmental districts. This decentralization has created a 
potential vulnerability to crime, and in some cases has 
influenced criminals to shop for ports that offer the best 
opportunities for criminal activities.
    If I may say, Senator, the reason I did my work with the 
Customs Service at Port Manatee was because the Port of Tampa a 
few miles north, had tightened its security and therefore those 
persons who were engaged in criminal activities, in this case 
primarily the export of stolen automobiles, had shifted to what 
they considered to be a softer target at Port Manatee.
    We lack a comprehensive Nation-wide strategy to address the 
security issues that face our seaport system. Therefore, later 
in 1998 I asked the President to establish a federal Commission 
to evaluate both the nature and extent of crime and the overall 
state of security in seaports, and to develop recommendations 
for improving the response of federal, state, and local 
agencies to all types of seaport crime.
    In response to my request, President Clinton established 
the Interagency Commission on Crime and Security in U.S. 
Seaports on April 27, 1999, and over the past 17 months the 
Commission has conducted onsite surveys of 12 U.S. seaports, 
including the Florida ports of Miami and Port Everglades. At 
each location, interviews and focus group sessions were held 
with representatives of government agencies and the trade 
community.
    The focus group meetings with federal agencies, state and 
local government officials, and the trade community, were 
designed to solicit their input regarding issues involving 
crime, security, cooperation, and the appropriate government 
response to these issues.
    The Commission also visited two large foreign ports, 
Rotterdam in the Netherlands, and Felixstowe in the United 
Kingdom, in order to assess their security procedures and use 
their standards and procedures as a benchmark for comparing 
operations at U.S. ports.
    In late August of this year, the Commission issued its 
final report, the subject of today's hearing, which identifies 
many of the common security problems that were discovered at 
U.S. seaports. The report also issues 20 recommendations for 
improving security at U.S. seaports. Although your other 
witnesses will describe these recommendations in greater 
detail, I would like to highlight a few of them.
    Among other items, the Commission recommends the creation 
of a national level security subcommittee of the Interagency 
Committee on the Marine Transportation System. The specific 
goal of this subcommittee will be to develop voluntary minimum 
security guidelines for seaports and a model port concept which 
would include detailed site plans and procedures that could be 
adopted by all ports to improve their security.
    Second, the establishment of local port security committees 
with federal, state, and local and private sector membership.
    Third, the preparation of an annual interagency crime 
assessment report for each American seaport.
    Fourth, the development of a 5-year crime and security 
technology deployment plan to identify and evaluate advanced 
investigative technology that can be deployed to seaports.
    Senator I would like to comment that from my visits, 
particularly to the port of Rotterdam in the Netherlands, I was 
impressed at the gap that exists between what is the state-of-
the-art in the application of technology to issues such as how 
to penetrate literally thousands of container cargoes per day, 
how that is being done at Rotterdam as contrasted to how it is 
not being done at most U.S. seaports.
    I would hope that one of the results of this Commission 
report and action by this Committee and the Congress would be a 
much greater emphasis on developing of state-of-the-art 
technology for security at our seaports, and then deploying 
that technology to as many of our seaports as possible.
    Next, the establishment of interagency federal inspection 
stations at seaports to facilitate cooperation among federal 
agencies and to expedite the flow of legitimate trade and 
commerce.
    Finally, an analysis of future federal personnel resource 
requirements at seaports based upon future projections of 
seaport crime, trade volume, technology improvements.
    These, Senator are some of the primary recommendations of 
the Commission. It is important to note that not all actions 
with regard to seaport security need to be taken at the federal 
level. As an example, the Florida Office of Drug Control has 
recently published a state-wide security assessment of Florida 
seaports which in many ways echoes the findings of the seaport 
Commission's report.
    Recognizing the shared responsibility for seaport security 
among federal, state, and local governments, I believe that 
this example of a state initiative could be used as a model for 
other states which will look closely at this problem.
    The publication of the Commission's final report should be 
viewed as only an initial chapter in our efforts to enhance the 
safety and security of U.S. seaports. Many of the Commission's 
recommendations will require the administration to pursue 
regulatory and budgetary actions to ensure they are fully 
implemented.
    I have asked the President and Mr. Jack Lew, Director of 
the Office of Management and Budget, to include the necessary 
funding in the fiscal year 2002 budget request to begin 
addressing the security needs of our seaports. I will be 
working closely with the administration to address these needs, 
and I will fully support their efforts to provide the necessary 
funding for any initiatives related to seaport security.
    Finally, together with you, Senator, we have introduced the 
Port and Maritime Security Act of 2000, which has been 
introduced as S. 2965. This legislation would address those 
security recommendations presented by the Commission which 
require congressional enactment. Because time is running short 
in this congressional session, we expect that this legislation 
will be reintroduced as early as possible in the 107th 
Congress. However, I am sure that any actions that we can take 
with regard to this legislation or seaport security in general 
in the final weeks of the year 2000 will facilitate the early 
consideration of similar legislation in 2001.
    Mr. Chairman, seaports play one of the most critical roles 
in expanding our international trade and protecting our borders 
from international threat. Both the report of the Interagency 
Commission on Crime and Security in U.S. Seaports and the Port 
and Maritime Security Act recognize these important 
responsibilities of our seaports and advocate the use of 
appropriate resources to move our ports into the 21st Century.
    I urge all of us to look toward the future by supporting 
enhanced seaport security and by taking action now to protect 
one of our most valuable tools in the promotion of America's 
economic growth.
    Thank you, Senator.
    Senator Hollings. [Presiding.] Thank you, Senator. There is 
no question you have done a thorough job, and we have these 
valued recommendations in our S. 2965 measure, and as we go 
along I am going to look to you, in particular, to recommend 
any kind of changes as we learn exactly how we are going to get 
a handle on this.
    If I were asked on an exam who was responsible for the 
security at my own home town, the Port of Charleston, I would 
have to say the state and local officials, and not the United 
States. True it is the United States that has the Customs 
agents. In fact, my office is located in the Customs house, but 
Customs is underfunded and undermanned, and we know that from 
years of trying to get Treasury to boost the resources of the 
Customs Service, and of trying to get additional resources for 
the Coast Guard.
    This Committee some 18 years ago increased the size of the 
United States by one-third, extending the 200-mile economic 
zone out, and then promptly cut the Coast Guard budget, so when 
Senator Stevens and I, every time we meet on 050 budget, namely 
the defense budget, we have to rob $300 to $350 million to help 
supplement the Coast Guard budget.
    So the Coast Guard is doing a good job within bounds, 
mostly on the seaward side of the port. Customs is doing its 
best trying to facilitate the move of traffic, and yet at the 
same time, can you imagine trying to inspect one of these 40-
foot containers and go all the way through it and everything 
else like that? It would almost take a day to inspect just one 
container coming in.
    So the state and the local authorities are looked upon for 
the actual security itself, and I've seen a modicum of 
cooperation. Our Customs agents actually are in some instances, 
forced to go to the county sheriff to get the dogs to sniff if 
they've got a suspicious piece of cargo coming in. They have to 
go to the county sheriff, and I've seen them myself use the 
county's dogs--customs doesn't have the necessary resources for 
those kinds of things.
    So we have got to fix areas of responsibility when we have 
got everybody concerned to ensure that we have someone 
responsible. But it is significant, Senator Graham, that of 
this study Commission, and I think the record should show it, 
that we have got Raymond Kelly of the Customs Service, James K. 
Robinson of the Department of Justice who cochaired it, along 
with Clyde Hart, the Maritime Administrator, and then we also 
have participation from the Departments of Treasury, Commerce, 
Defense, the National Drug Control Policy, Joint Chiefs of 
Staff, the Coast Guard, the Environmental Protection Agency, 
the Departments of Agriculture, Labor, State, and the Office of 
Management and Budget, the National Security Council, the 
Central Intelligence Agency, and also the Departments of 
Justice, and of Health and Human Resources. These departmental 
authorities are critical of our own ineptitude and lack of 
security.
    Senator Graham. Let me invite you, if you wish, to sit with 
us at the Committee, because we are ready to call these 
witnesses and maybe you would like to ask some questions if you 
have the time this morning.
    Senator Graham. Thank you, Senator. I will accept your 
invitation. I am afraid I will not be able to stay very long 
because we have a Finance Committee meeting starting at 10.
    Senator Hollings. Well, I am confident anybody watching 
this hearing, and to quote Plato's famous little couplet, the 
politician makes his own little laws and sits attentive to his 
own applause, I mean, you and I, having this hearing, we could 
go back and forth all morning long, as long as that TV worked.
    [Laughter.]
    Senator Hollings. Thank you very much, then, Senator. Let 
us get these witnesses here, because I cannot tell when they 
are going to have a roll call. We have on the panel, Mr. Kurt 
Nagle, president, American Association of Port Authorities, 
Admiral Loy, the Commandant of United States Coast Guard, Hon. 
Clyde Hart, Maritime Administrator, Hon. Raymond Kelly, the 
Commissioner of the United States Customs, Hon. James K. 
Robinson, Assistant attorney General of the Criminal Division 
of the Department of Justice, and John Tousseau, executive 
board member of the International Longshore & Warehouse Union.
    Now, we will go from left to right. Mr. Nagle, you get the 
microphone and start us off and see what we can learn here.

            STATEMENT OF KURT J. NAGLE, PRESIDENT, 
            AMERICAN ASSOCIATION OF PORT AUTHORITIES

    Mr. Nagle. Good morning, Senator Hollings. I am Kurt Nagle, 
president of the American Association of Port Authorities. AAPA 
is an association of almost 160 public port authorities in the 
United States, Canada, the Caribbean and Latin America.
    My testimony today reflects the views of AAPA's United 
States delegation. AAPA port members are public entities, 
divisions, or agents of state and local government charged with 
developing port facilities and toward that end have invested 
billions of dollars of public funds. AAPA's member ports serve 
vital national interests by facilitating the flow of trade and 
supporting the mobilization and deployment of U.S. Armed 
Forces.
    International trade has grown to account for almost one-
third of our gross domestic product. More than 11 million U.S. 
jobs now depend on exports. In addition, the existing taxes and 
fees on international commerce provide nearly $22 billion in 
revenues to the federal government annually.
    As Senator Graham mentioned, in the next 20 years overseas 
international trade, of which 95 percent enters the Nation's 
ports, is expected to double or possibly even triple. As the 
link between the land and the water, ports continue to update 
and modernize their facilities to not only accommodate this 
growth, but to be secure.
    U.S. port authorities do not condone illegal acts of any 
kind taking place in public ports. Our members believe that the 
protection of port cargo, passengers and facilities from 
criminal activity is critical to ports, their customers, as 
well as to the Nation as a whole. In fact, AAPA has a 
longstanding Port Security Committee focusing on these issues.
    Ports have invested significant resources in improving 
security at seaports to prevent seaport crime from occurring. 
Many ports spend millions of dollars annually on their own port 
police as well as patrol vehicles, training, computer systems, 
et cetera. Also, many of our port members have and continue to 
invest in security infrastructure such as fencing, lighting, 
and barriers.
    In addition to providing this infrastructure, our members 
work with local and federal authorities to eliminate criminal 
activities, and will continue to seek new avenues to stop crime 
at seaports. Security at seaports involves multiple state, 
local, and federal government jurisdictions, as well as the 
private sector. The federal government plays a large role in 
maintaining security at these international borders.
    While the association recognizes the need for the port 
industry to continue working in cooperation with Congress and 
the appropriate federal agencies in addressing port security 
issues, we believe that moving S. 2965, the Port and Maritime 
Security Act of 2000, at this time is premature. As you know, 
the Interagency Commission on Crime and Security in U.S. 
Seaports has just recently released its report, and we believe 
that a comprehensive review of the findings and recommendations 
is necessary to properly evaluate options for the most 
effective federal programs.
    Also, rushing legislation through Congress without 
considering the diverse security needs of U.S. ports could have 
a major impact on the port industry. Any legislation considered 
by Congress should be sensitive to the nature and complexity of 
the industry. There is no universal approach to security that 
would appropriately address the wide range of individual port 
requirements.
    America's port industry is vast, versatile, and highly 
competitive, consisting of deep draft commercial seaports 
dispersed along the Atlantic, Pacific, Gulf, and Great Lakes 
coast. These ports range from huge load centers to relatively 
smaller ``niche'' ports serving the unique needs of particular 
regions, localities, or industries. With such a range of ports, 
what works in one port to control crime and security may not 
work in another.
    The Commission's report concludes that the primary criminal 
activities at seaports is in violation of federal laws for 
which federal agencies are primarily responsible. We have 
concerns that the bill as crafted places the responsibility on 
ports for solving most seaport crime problems by instituting 
industry security guidelines and offering limited loan 
guarantees for security infrastructure. There is little in the 
bill aimed at increasing federal agency resources to address 
these problems, and Senator Graham noted the importance in his 
testimony of adequate resources at the federal level.
    Issues such as terrorism and other criminal activity 
require significant resources. Confronting these challenges 
requires a national commitment and resources by all levels of 
government. More specifically, it means that federal and non-
federal jurisdictions must share resources, expertise, and work 
together to deter criminal activity.
    The Commission's report recommends a partnership to solve 
crime and security issues. The bill, however, gives all 
authority for adopting new federal mandates to the U.S. Coast 
Guard and other federal agencies. Our members believe that a 
cooperative public-private approach for recommending changes 
would result in a more effective security program.
    In closing, I want to thank you, Senator Hollings and 
Senator Graham, for giving us the opportunity to be here to 
discuss port and maritime security. We look forward to 
continuing to partner with you, the Congress, and the federal 
agencies in addressing these important issues.
    [The prepared statement of Mr. Nagle follows:]

            Prepared Statement of Kurt J. Nagle, President, 
                American Association of Port Authorities
    Good morning. I am Kurt Nagle, President of the American 
Association of Port Authorities (AAPA). Founded in 1912, AAPA is an 
association of almost 160 public port authorities in the United States, 
Canada, Latin America and the Caribbean. In addition, the association 
represents almost 300 sustaining and associate members, firms and 
individuals with an interest in the seaports of the Western Hemisphere. 
My testimony today reflects the views of AAPA's United States 
delegation.
    AAPA port members are public entities, divisions or agents of state 
and local government mandated by law to serve public purposes. 
Essentially, we are public agencies charged with developing port 
facilities and facilities of commerce and toward that end have invested 
billions of dollars of public funds. In 1970, trade represented only 13 
percent of U.S. GDP. Trade has grown to account for almost one-third of 
our GDP. More than 11 million U.S. jobs now depend on exports--1.5 
million more than just four years ago. Significantly, wages for export-
related jobs are 13 to 17 percent higher than non-trade-related jobs in 
the economy. In addition, existing taxes and fees on international 
commerce provide nearly $22 billion in revenues to the federal 
government annually.
    AAPA's member ports serve vital national interests by facilitating 
the flow of trade and supporting the mobilization and deployment of 
U.S. Armed Forces. In the next twenty years overseas international 
trade, of which 95 percent enters the nation's ports, is expected to 
double. As the link between the land and the water, ports continue to 
update and modernize their facilities to not only accommodate this 
growth, but to be secure.
    U.S. port authorities do not condone illegal acts of any kind 
taking place in public ports. Ports believe that the protection of port 
cargo, passengers and facilities from pilferage, theft, terrorism and 
other criminal activity is critical to ports, their customers, as well 
as to the nation as a whole. In fact, AAPA has a long standing port 
security committee focusing on these issues.
    Ports have invested significant resources in improving security at 
seaports to prevent seaport crime from occurring. Some ports spend 
millions of dollars on their own port police as well as, patrol 
vehicles, training, computer systems, etc. Also, many of our port 
members have and continue to invest in security infrastructure such as 
fencing, lighting and barriers.
    In addition to providing this infrastructure, our members work with 
local and federal authorities to eliminate criminal activities and will 
continue to seek new avenues to stop crime at seaports. Security at 
seaports involves multiple state, local and federal government 
jurisdictions as well as the private sector. The federal government 
plays a large role in maintaining security at these international 
borders. Federal agencies with law enforcement responsibilities at 
seaports include U.S. Customs, Coast Guard, Department of Agriculture, 
Immigration and Naturalization Service, and the Federal Bureau of 
Investigation.
    While the Association recognizes the need for the port industry to 
continue working in cooperation with Congress, and the appropriate 
federal agencies, in addressing seaport security issues, we believe 
that moving S. 2965, the ``Port and Maritime Security Act of 2000'' at 
this time is premature. As you know, the Interagency Commission on 
Crime and Security in U.S. Seaports has just recently released its 
report and we believe that a comprehensive review of the findings and 
recommendations is necessary to properly evaluate options for the most 
effective federal programs.
    Also, rushing legislation through Congress without considering the 
diverse security needs of U.S. ports could have a major impact on the 
port industry. Any legislation considered by Congress should be 
sensitive to the unique nature and complexity of the industry. There is 
no universal approach to security that would appropriately address the 
wide range of individual port requirements, therefore, AAPA believes 
that it is important for the port industry, Congress and the 
appropriate federal agencies to work in cooperation in considering the 
issues raised in the Commission's report.
    America's port industry is vast, versatile and highly competitive, 
consisting of deep draft commercial seaports dispersed along the 
Atlantic, Pacific, Gulf and Great Lakes coasts. These ports range from 
huge load centers handling millions of tons of containerized, breakbulk 
and dry and liquid bulk cargos to relatively small ``niche'' ports 
serving the unique needs of particular regions, localities, or 
industries. Furthermore, ports differ in the way they are operated. 
AAPA membership consists of operating, landlord and limited operating 
ports. Operating ports are those in which cargo handling inland from 
the pier is performed by port authority employees. At landlord ports, 
these functions are performed by tenants. Limited operating ports 
combine these roles, leasing some facilities and operating others. With 
such varied control over port operations and facilities, what works in 
one port to control crime and security may not work in another port.
    The Commission's report concludes that the primary criminal 
activity at seaports is in violation of federal laws, for which federal 
agencies are primarily responsible. We have concerns that the bill as 
crafted places the responsibility on ports for solving most seaport 
crime problems by instituting industry security guidelines and offering 
limited loan guarantees for security infrastructure. There is little in 
the bill aimed at increasing federal agency resources to address these 
problems.
    Issues such as terrorism, drug smuggling, illegal aliens, trade 
fraud, and export crimes require significant federal resources. 
Confronting these challenges requires a national commitment and 
resources by all levels of government. More specifically, it means that 
federal and non-federal jurisdictions must share resources, expertise 
and work together to deter criminal activity.
    The Commission's report recommends a partnership to solve crime and 
security issues. The bill, however, gives sole authority for adopting 
new federal mandates to the U.S. Coast Guard and other federal 
agencies. Our members believe that a cooperative public/private 
approach for recommending changes would result in a more effective 
program, and would ensure that the diverse security needs of ports are 
adequately addressed. This is supported in the report which argues that 
a cooperative group of Agency, local, private sector, and port industry 
representatives should work together ``to discuss, evaluate, and 
propose solutions related to seaport security and to address research 
and development.''
    In closing, I want to thank you Mr. Chairman for giving us the 
opportunity to be here to discuss port and maritime security. We look 
forward to continuing to partner with you, Congress and the federal 
agencies in addressing these important issues.

    Senator Hollings. Admiral Loy, if you and the others would 
summarize as best you can so we can hear everyone this morning 
and respond to questions. Your entire statement will be 
included in the record, and we are delighted to have you. 
Admiral Loy, we will hear from you now.

              STATEMENT OF ADMIRAL JAMES M. LOY, 
                  COMMANDANT, U.S. COAST GUARD

    Admiral Loy. Good morning, Senator Hollings, Senator 
Graham. I am honored to join my colleagues before you today to 
discuss the Coast Guard's impressions of the final report of 
the Interagency Commission. As you noted earlier, sir, I 
participated as a member of the Commission. I believe we did 
our work thoroughly, and I can report Coast Guard's full 
concurrence with the recommendations package. I would like to 
make just three points in my opening statement, sir.
    First, this report I believe very properly reinforces 
current responsibilities among key federal agencies. Those 
responsibilities are provided for in the law, and the report 
suggests strong support is in order to enable those agencies to 
meet their growing responsibilities. For the Coast Guard, that 
first order of business, as you described in your opening 
statement, Senator Hollings, is to really restore our readiness 
across the board, and invest in the modernization projects 
necessary to allow us to do all of our work, including the 
challenges represented in the Commission's report.
    Second, the report reinforces in greater detail the report 
on the Marine Transportation System submitted to the Congress 
just last year. That report was the result of a 2-year effort 
led by Coast Guard and MARAD for Secretary Slater to raise the 
visibility of these very issues we speak about this morning. 
Security in that report was one of five key areas of concern 
reported then, and I am delighted to see that this Commission 
reinforces those basic recommendations of the MTS report.
    Third, I am convinced that we have really only begun to 
understand the bigger picture here, and I would like to comment 
on that for just a minute. Last year, Secretary Slater and I 
stood in front of 6 tons of cocaine off-loaded from the cargo 
hold of the motor vessel CANNES in Houston, Texas. It was 
secreted in the depths of the cargo hold under tons of iron 
ingots loaded in Brazil and destined for the United States.
    It was a great seizure, keyed by superior Coast Guard 
professionalism at sea, superior intelligence support from DEA 
and others, excellent detection and monitoring by the 
Department of Defense, superb professionals in the Customs 
Service in the Port of Houston--a solid team effort.
    But my thoughts as we stood there in front of that 6 tons 
of cocaine were these. Imagine what that could have been, 
chemical or biologic agents, a nuclear device, any of hundreds 
of possibilities. We won that one with a very cooperative flag 
state on a simple bulk cargo ship with superior agency 
cooperation.
    Now, imagine a 6,000 TEU flag-of-convenience container 
vessel, with a multinational crew, cobbled together by a hiring 
agency for an Algerian vessel operator who chartered the vessel 
from a Greek shipowner, whose corporate offices were in the 
Cayman Islands. All of a sudden the complexity index of that 
challenge has gone up tenfold or more.
    Mr. Chairman, the Hart-Rudman Commission published two 
simple goals as part of their report at the end of the first 
phase of their ongoing work. They wanted to make certain that 
we sustained our economic prosperity and ensure the security of 
our homeland. These are both absolutes for the future of our 
Nation, and when you look hard, sustaining prosperity breeds 
inevitable openness with regard to our port structures.
    Trade is predicted to double, if not triple in the next 20 
years, as you have already heard. Globalization and time-
definite logistics have put an incredible premium on rapid, 
predictable cargo throughput. Disruptions such as multiple 
federal agency inspections truly have huge economic impact on 
ports, on companies, on regions of our country, or even on 
countries themselves. On the other hand, ensuring homeland 
security suggests a requirement to tighten down those borders. 
These are opposing demands, and we must find a concept that 
allows both to go forward.
    I'd like to leave you today with just a bigger picture 
concept, and I will call it for the moment ``maritime domain 
awareness.'' Its key elements would be an integrated, 
accessible data base of information for all the agencies that 
need to get into it, one-stop coordinated inspections, high 
technology sensors, and X-rays and scanners, and solid 
decisionmaking bodies charged with taking on and solving these 
problems.
    I believe its key characteristics would be a systems 
approach that integrates our many and varied efforts, 
transparency in the domain from over there internationally to 
here in U.S. ports, collaboration among federal agencies, and 
certainly coordination among international, regional, local, 
and federal interests, sensitivity to customer service, and a 
risk-based decisionmaking concept that would allow us to do our 
jobs well. Its tools would include solid vulnerability 
assessments with action plan followups, a model port guide with 
special attention to security guidelines, and as Senator Graham 
has reinforced, counterterrorism and contingency plans, and 
exercises that support those plans, with real-time cargo, 
people, and vessel tracking systems.
    Mr. Chairman, we have just finished our first prototype 
vulnerability assessment as a trial run in the Port of 
Baltimore. We worked with the Defense Threat Reduction Agency 
to produce a multiple week-long assessment process. It was a 
challenging effort in a challenging port. It covered both the 
commercial and military outload implications as if it were one 
of our 17 designated strategic ports.
    Our goal was to build and refine that assessment process, 
and the results of this initial effort are now back under 
review by the Security Subcommittee of the ICMTS, which has in 
fact been established, ICMTS being the Interagency Committee on 
the Marine Transportation System.
    Mr. Chairman, the Commission's report is sound, it is very 
solid and the recommendations are on target, and I suggest to 
you and the Committee that this is an issue of huge consequence 
for our Nation. I would hope that we would not wait for some 
tragedy to provoke either legislation or a better way of doing 
business.
    I look forward to your questions, sir.
    [The prepared statement of Admiral Loy follows:]

              Prepared Statement of Admiral James M. Loy, 
                      Commandant, U.S. Coast Guard




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Good morning, Mr. Chairman and distinguished Members of the 
Committee. As Commandant of the U.S. Coast Guard, I want to thank you 
for the opportunity to appear before you today to discuss the Coast 
Guard's views regarding the final report of the Interagency Commission 
on Crime and Security in U.S. Seaports, hereinafter referred to as the 
Seaport Commission Report.
    The Seaport Commission Report is unique in that all of the 
appropriate federal agencies worked together to develop and agree to an 
outline on how to improve security and reduce crime within our nation's 
port environment. As a multi-mission, maritime, military service within 
the Department of Transportation, the Coast Guard is a leader in 
ensuring America's maritime security. As a lead agency for seaport 
security, we provide valuable service to the American people by making 
the nation safer, cleaner, more mobile, and more secure. The Coast 
Guard concurs with and fully supports the findings and recommendations 
of the report.
    As you know from Secretary Slater's September 1999 Report to 
Congress on the U.S. Marine Transportation System (MTS), U.S. trade is 
expected to more than double by the year 2020. In addition, the 
President's National Security policy, under Critical Infrastructure 
Protection, states that ``Our national security and our economic 
prosperity rest on a foundation of critical infrastructures . . .'' 
which includes transportation. The Seaport Commission Report identifies 
a lack of adequate security for our critical MTS infrastructure, which 
can potentially affect our entire economy. Therefore, it is very 
important that we address the issues of security and crime in seaports 
now. If we do, we can assure our National Security and our ability to 
keep our nation's transportation system the very best in the world. The 
report contains a solid prescription for making our ports secure, 
guaranteeing our economic and national security, and reducing crime in 
those ports.
    We have begun to address some of the issues identified by the 
Commission under Secretary Slater's MTS initiative. The Report to 
Congress on the U.S. Marine Transportation System was developed in 
concert with all government agencies and maritime industry stakeholders 
involved in the MTS. The report outlines the current state of the MTS, 
establishes a vision for the future, and identifies what is needed to 
get there, including a framework of national, regional, and local MTS 
coordinating committees. A significant piece of the MTS report deals 
with security issues, from the standpoint of both national defense and 
border control/law enforcement. The report states that the MTS is 
especially vulnerable to crime and terrorism because of the scale, 
complexity, and pace of activity in our ports, which often overwhelms 
local, state, and federal enforcement capabilities. Fortunately, the 
strength of the MTS design is the interagency partnership that has 
developed from the national to the local level.
    Similar to the MTS report, the Seaport Commission Report identifies 
the need to balance the management of maritime cargo movement with 
maintaining security of our MTS. The Commission suggests using MTS 
interagency committees and an interagency operational systems approach 
to facilitate both cargo growth and border control.
    The Seaport Commission recognizes the leadership value of the MTS 
coordination committees, MARAD's Marine Transportation System National 
Advisory Committee (MTSNAC), and the Interagency Committee on the 
Marine Transportation System (ICMTS), chaired by the Coast Guard. The 
Commission recommends that the aforementioned committees develop 
implementation plans for several important proposals stated in the 
report. I fully endorse this approach. To this end, I am pleased to 
note that progress has already been made in establishing a security 
subcommittee in both the MTSNAC and the ICMTS.
    The Commission recognized that additional resources are needed to 
implement some of its recommendations. Examples include implementing 
infrastructure improvements to allow for interagency systems 
integration, and pursuing the ``model port concept'' through which best 
practices by marine terminal operators are shared, and voluntary 
minimum-security guidelines are developed.
    The report indicates that, to the extent there are resource 
implications, they must be weighed against other priorities in the 
context of the overall budget. The Coast Guard intends to do that in 
the context of budget development.
    In summary, the Coast Guard is encouraged that seaport security 
concerns are receiving national attention. I am also pleased that 
Seaport Commission suggests that the MTS coordinating committees 
implement many of their recommendations. Thank you for the opportunity 
to submit this written statement for the record.

    Senator Hollings. Thank you very much, Admiral.
    Administrator Hart, welcome back.

           STATEMENT OF CLYDE J. HART, JR., MARITIME 
        ADMINISTRATOR, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Hart. Thank you very much, Senator. It is nice to be 
back. Good morning, Senator Hollings, Senator Graham. I am 
pleased to be here today to share with you MARAD's views on the 
important issue of port and maritime security. Port and 
maritime security are finally receiving the attention that has 
eluded it for many years. It could not come at a better time, 
and I wish to express my appreciation to this Committee for its 
leadership in bringing this issue before the American people.
    This hearing will doubtless address many of the issues 
discussed in the port Commission report recently submitted to 
the White House. This report will serve as a foundation for 
providing executive and legislative branches of government 
important information and expert advice.
    I was honored to serve as cochairman of this Commission. I 
can testify to the zeal and experience its members brought to 
the formidable maritime security challenges confronting us. 
Senator Hollings and the cosponsors of S. 2965, the Port and 
Maritime Security Act of 2000, have taken the port security 
initiative to the next level.
    Basically, I have two messages that I wish to share with 
you. First, that government and industry need to work together 
to heighten port security. Second, MARAD welcomes the challenge 
of enhancing port security.
    Why must government work hand-in-hand with industry on 
bolstering security at our seaports to combat crime? Cargo 
theft is no longer an inconsequential aspect of doing business. 
Theft of high technology cargoes alone from the U.S. 
manufacturers and their customers may exceed $5 billion 
annually. Over 200,000 stolen automobiles last year worth more 
than $4 billion were illegally shipped out of the United 
States.
    The siphoning off of legitimate profits through criminal 
activity goes far beyond simple economic losses. Smuggling 
illegal drugs into America focuses naturally in and around 
ports. Drug trafficking has destroyed tens of thousands of 
lives. The vulnerability of ports to terrorism is real, though 
the threat to date has been low. We cannot permit military 
mobilization to be adversely affected.
    The Commission's report wisely counsels using the existing 
government-industry channels to address this issue. The Marine 
Transportation System National Advisory Council and the 
Interagency Committee on the MTS are ideally suited to do just 
that. MARAD has always been an active participant in 
strengthening port and maritime security both domestically and 
internationally.
    MARAD played a lead role in developing the Department of 
Transportation Publication, Port Security and National Planning 
Guide, which provides a common basis upon which to establish 
port security standards. We also produce the maritime security 
report, which informs the maritime community about 
international criminal activity that poses a threat to U.S. 
commercial maritime interests.
    MARAD chairs and serves as secretariat of the Technical 
Advisory Group on Port Security of the Organization of American 
States Interamerican Committee on Ports.
    MARAD is also chair of the National Port Readiness Network, 
so we work closely with the military for mobilization.
    Mr. Chairman, I look forward to working with you and 
Senator Graham to accomplish our common goals of improving this 
Nation's port and maritime security. The seaports Commission 
report and Senator Hollings' bill deserve our attention. Port 
and maritime security is important to everyone. Why? Few people 
stop to consider that $3/2 trillion annually can be traced to 
goods and services that flow through our ports. That is a lot 
of money, a lot of jobs, and a lot of responsibility. We take 
that duty seriously and inaction is not an option.
    I will be pleased to answer any questions of Senator 
Hollings or Senator Graham. Thank you.
    [The prepared statement of Mr. Hart follows:]

               Prepared Statement of Clyde J. Hart, Jr., 
       Maritime Administrator, U.S. Department of Transportation
Introduction
    Good morning Mr. Chairman and Members of the Committee. I am Clyde 
Hart, Maritime Administrator. I am happy to be here today to address 
the important issue of port security and to discuss S. 2965, the Port 
and Maritime Security Act of 2000. As everyone here knows Mr. Chairman, 
our seaports are among the most vital pieces of real estate this 
country has--both in terms of economics and national security. Any 
hindrance of the flow of cargoes to or from our shores, whether they be 
commercial or military cargoes, could have dire consequences.
    Worldwide, ships and the cargoes they carry are being increasingly 
targeted by criminal factions that specialize in alien smuggling, cargo 
theft, drug smuggling and terrorist activities. Simply put, security 
weaknesses in and around our ports allow these activities to continue. 
The associated costs reduce competitiveness and threaten military 
readiness.
    In our view, government partnering with industry to remove those 
weaknesses, while at the same time maintaining or improving upon the 
efficiencies for the movement of cargo, is the basic premise upon which 
all port security measures should be viewed. The Maritime 
Administration (MARAD) is highly qualified to further this goal. As an 
agency whose mission is focused on the development and maintenance of a 
strong maritime industry for both economic and national security 
purposes, MARAD has developed close relationships with key players to 
improve port security. Not only do we believe that MARAD should play a 
key role in port security initiatives, it is an area in which MARAD 
already has been working for well over a decade, both domestically and 
internationally.
    Before I discuss in more detail some of the ways in which MARAD has 
and will continue to promote seaport security, I would like to outline 
briefly some of the reasons why seaport security has become a 
government priority.
The Need for Heightened Port Security
    In April of 1999 President Clinton signed an Executive Memorandum 
establishing an Interagency Commission (The Commission) on Crime and 
Security in U.S. Seaports. The President called for a comprehensive 
review of seaport crime, the state of seaport security and the ways in 
which government is responding to the problem. This critical first step 
created the vehicle for the Commission to sound a warning that security 
in and around our port areas needs improvement. Shortcomings in port 
security not only cost our country valuable time and resources but also 
have the potential to impact military readiness. The Commission, which 
I was honored to co-chair, recently submitted its nearly 250 page 
report to the President. The report specifically identifies threats to 
seaports and recommends a number of measures intended to reduce the 
vulnerability of maritime commerce, national security and the 
infrastructure that supports them. We at MARAD applaud the President's 
initiative in this area and are grateful to Senator Hollings and the 
co-sponsors of S. 2965 for making security at our ports a priority.
    Many factors have contributed to the need for increased port 
security. As the Commission pointed out in its report to the President, 
thefts of high technology cargoes alone, from U.S. manufacturers and 
their customers, may exceed $5 billion annually in direct and indirect 
costs. The cost of cargo theft is not limited to the manufacturer's 
expenses to produce a certain product. Among other things, theft costs 
include lost productivity, lost time and resources spent with police, 
attorneys, and claims adjusters. Theft also results in increased 
insurance premiums, greater liability exposure, lost trade, erosion of 
goodwill and damaged reputation. Nevertheless, in the end, the price of 
all these individualized costs is borne by you and me, as taxpayers and 
consumers. Literally, billions of dollars per year are stolen from us 
at the hands of thieves in and around our port areas.
    Immigration crimes including alien smuggling and stowaways are 
another major seaport security challenge. Stowaways, in particular, are 
a significant concern for many U.S. ports. Vessels arriving in the U.S. 
from third world countries frequently carry stowaways hiding on the 
ship or in empty containers. Ship's crews spend precious time 
inspecting the ship and empty containers prior to departure seeking to 
ensure that stowaways are not aboard. These same crewmembers also 
jeopardize their safety by confronting determined stowaways desperate 
to seek a better life. Once at the port of arrival, the discovery of 
stowaways aboard a vessel immediately results in a disruption of 
service and can cost the vessel operator hundreds of thousands of 
dollars. Vessel operators are responsible not only for the complete 
costs of repatriating the stowaways but are generally subject to fines 
for violating immigration laws. A century ago, stowaways were probably 
considered no more than a minor inconvenience. Today, the financial 
costs to steamship companies in a highly competitive global market can 
be very significant. The problems created by stowaways domestically 
also point directly to the shortcomings of port security abroad. 
International seaport cooperation and recognition of the problem is 
essential to its eradication. Strict control of access to port areas, 
containers and ships is critical. Without international cooperation, 
immigration crimes will continue to plague our ports.
    According to the Commission's report, drug smuggling was the most 
prevalent and most reported crime affecting seaport security. Both 
passenger and cargo ships arriving at U.S. ports offer smugglers the 
opportunity to transport vast quantities of contraband. While it is 
obvious from the number of seizures made by law enforcement agencies 
that the efforts against illegal drug trafficking continue, it is the 
economic not the social impact that is the primary concern for the 
transportation industry. Inspections of arriving ships and cargo must 
be sufficiently effective to deter smugglers, yet not so intrusive as 
to impact significantly the smooth flow of cargo to and from port 
areas. In an era where ``just-in-time'' logistics allows companies to 
maintain their competitive edge, undue delays to prevent the 
importation of contraband can upset entire supply chains with a ripple 
effect of negative consequences across the globe.
    The Commission's report also discusses terrorism as a concern for 
seaport security. While known incidents of terrorist activity at U.S. 
seaports remain undocumented, it is the threat of such activity and the 
vulnerability of seaports that are the reasons for concern. Addressing 
port vulnerabilities is key to ensuring that our ports are not targeted 
for terrorist and criminal activities. Moreover, most of the serious 
crimes that take place in our seaports are in fact violations of 
federal law. For this reason, it makes good sense for the federal 
government to work with the ports to explore ways to minimize criminal 
activity.
MARAD's Role in Contributing to Port Security
    Mr. Chairman, the Maritime Administration does not need to be 
convinced that port security is a good idea. Many of us have observed 
firsthand the repercussions of security lapses. Nevertheless, achieving 
appropriate levels of security in our seaports and seeking to educate 
our international partners as to the need and benefits of seaport 
security is no small undertaking. Since the advent of containerization 
and with the advancement of technology, modern seaports often consist 
of hundreds of acres of stacked containers, some empty, some loaded, 
awaiting shipment. As one wanders through these areas one cannot help 
but be struck by the fact that because of technology, fewer and fewer 
people are required to move massive quantities of cargo. In some ways, 
our reliance on technology has exposed us to unforeseen 
vulnerabilities. Where port workers no longer patrol, security risks 
abound. As noted in both the seaport Commission's report and in S. 
2965, port security infrastructure improvement is a critical aspect of 
modern port security needs. The Maritime Administration has long 
recognized the need for more secure port infrastructures both at home 
and abroad. We are pleased to support potential progress in this area.
    MARAD has a long history of port security outreach. In early 1990, 
MARAD conducted sessions on maritime terrorism and drug interdiction in 
the Ports of New York, Los Angeles/Long Beach, New Orleans, and 
Philadelphia. MARAD was also instrumental in developing a maritime and 
terrorism course for the Federal Law Enforcement Training Center. Over 
the last five years, MARAD has conducted training sessions for Gulf 
Coast port authorities on bomb threats to determine best practices and 
capabilities of various government agencies and bomb squads. Over 100 
port personnel have been trained in this effort. MARAD has also played 
a lead role in developing two DOT security guides. These include Port 
Security: A National Planning Guide and Port Security: Security Force 
Management. These guides provide local governments and the commercial 
maritime industry with a common basis upon which to establish port 
security standards and the outcomes expected from meeting those 
standards. In this regard, MARAD is well equipped to help carry out 
specific objectives of the seaport Commission's report and S. 2965 by, 
among other things, working with industry and the ports to develop and 
implement meaningful voluntary guidelines on port security. MARAD is 
confident that partnering with industry, working together on a 
voluntary basis is the key to meaningful progress. Mandating security 
with tight regulatory controls is likely to have a negative impact not 
only on government's relationship with the ports but on port efficiency 
as well. For these reasons MARAD supports those aspects of S. 2965 that 
will foster the type of government-industry cooperation so necessary to 
our common goal.
    Secretary Slater's Marine Transportation System (MTS) initiative 
has been an excellent example of how government and the maritime 
industry can work together to find solutions to a wide range of 
maritime issues. MARAD is optimistic that seaport security can be best 
achieved through partnering and cooperation without hindering the flow 
of commercial or military cargoes.
    MARAD recognizes that the movement of military cargoes through our 
commercial ports has and will continue to be standard practice. Because 
of our dual mission, MARAD works closely with both the maritime 
industry and the Department of Defense (DOD). As the seaport 
Commission's report noted, forward deployment of U.S. troops and 
equipment overseas in this post Cold War era is declining. Ongoing base 
closure and realignment initiatives have resulted in the closure of 
several military owned and operated ports. As a result, U.S. commercial 
ports have become critical centers for military mobilizations. The 
security of commercial ports during times of military mobilization is 
therefore critical to national defense. In developing port security 
standards MARAD has and will continue to work to bridge the gap between 
military requirements and industry concerns. A National Port Readiness 
Network was established by a memorandum of understanding between MARAD 
and various DOD Commands to ensure, in part, the readiness of 
commercial seaports in the event of a mobilization. MARAD, as the chair 
of the National Port Readiness Network (NPRN), can lead the effort to 
strengthen the NPRN in planning and coordination for military 
mobilization security at each of 13 commercial ports around the country 
designated as Strategic Ports.
    On an international basis, MARAD serves as Chair and Secretariat of 
the Technical Advisory Group (TAG) on Port Security of the Organization 
of American States (OAS) Inter-American Committee on Ports. The purpose 
of the port security TAG is to develop solutions and coordinate 
multilateral approaches to improving port security in the Western 
Hemisphere. The TAG has among its agenda: (1) developing a hemispheric 
approach to improving the security of the Inter-American maritime trade 
corridors; (2) developing a common port security strategy; (3) devising 
basic guidelines and minimum standards of security for ports of member 
countries of the OAS; and (4) organizing and conducting annual courses 
planned under the Inter-American Port Security Training Program, which 
are managed by MARAD.
    MARAD has had an on-going port security program with the 
Organization of American States (OAS) since the 1980s, including port 
security outreach. Since 1995, MARAD has been conducting port security 
training courses in the Western Hemisphere. Nearly 300 commercial port 
authority police and security personnel from the 34 member countries of 
the OAS have been trained.
    MARAD also recently participated in the planning and execution of a 
project to conduct port security assessments of Peruvian ports and 
produce a report useful to the Government of Peru. The Peruvian 
government had requested the assistance through the U.S. Embassy-Lima, 
pertaining to Peru's interest in a national port security strategy. The 
embassy, Narcotics Affairs Section, led the project and tasked the U.S. 
Southern Command to organize a U.S. interagency team to execute the 
project requirements. The team consisted of representatives from MARAD, 
the Customs Service, Coast Guard, Drug Enforcement Administration, and 
the Port of Los Angeles Police Department. MARAD produced a project 
report and other written documentation for use by the Peruvian 
government to bolster their port security needs.
    MARAD has continually engaged in outreach to foreign countries and 
their port authorities to enhance the efficiencies of global commerce, 
which in turn benefit our own maritime industry. By its very nature, 
trade is an international business in which U.S. companies rely upon 
the security and efficiencies of foreign ports. As another example of 
our outreach efforts, MARAD and the Port Authority of Argentina signed 
a bilateral document on June 24, 1999. This document considers the 
critical importance of port security to commercial maritime trade and 
affirms the need to develop channels of communication and exchange 
information and experience in port security. Further, it declares the 
mutual intention of the two government agencies to: (1) promote 
improved security of seaports and waterways, (2) exchange information 
in matters related to crime and security in seaports and waterways, and 
(3) develop and coordinate training programs for personnel responsible 
for seaport operations and security. This bilateral declaration began 
in multilateral sessions through the OAS Inter-American Committee on 
Ports.
    Finally, since 1995 MARAD has produced and published a report 
entitled the, ``Maritime Security Report''. The report is an 
unclassified periodic publication prepared to inform the commercial 
maritime industry and senior Maritime Administration officials of 
international criminal activity and security issues which could pose a 
threat to U.S. commercial maritime interests and the movement of 
civilian cargoes in foreign trade. The Maritime Security Report is 
intended to increase awareness of the scope and severity of economic 
crime affecting U.S. maritime commerce. MARAD expects increased 
awareness to contribute toward deterring criminal exploitation of the 
maritime transportation system and improving port and cargo security in 
international trade corridors.
    Mr. Chairman, MARAD is no stranger to the importance of port 
security. We have recognized it as a critical component of our maritime 
industry and our national security for many years. We heartily support 
the recommendations of the Port Security Commission. Many provisions of 
S. 2965 are consistent with the recommendations in the Commission's 
report, and we would support their enactment. At the same time, we 
cannot at this time recommend congressional enactment of provisions not 
included in the report--they will require additional study and 
consideration by the Department. We appreciate your willingness to 
consider our views on this topic.
    I would be happy to answer any questions you or the other Committee 
members may have.

    Senator Hollings. Thank you, Mr. Hart. Mr. Kelly, we 
welcome you.

              STATEMENT OF HON. RAYMOND W. KELLY, 
               COMMISSIONER, U.S. CUSTOMS SERVICE

    Mr. Kelly. Thank you, Senator Hollings, Senator Graham. 
Thank you for the opportunity to testify today. I sit before 
you today in two different roles, the first as cochair of the 
Interagency Commission and a contributor to its work, the 
second as the head of one of the federal agencies most impacted 
by the Commission's findings and recommendations. I would like 
to offer my perspectives from both sides, but first I want to 
express the Commission's gratitude to Senator Graham. Senator 
Graham's leadership was crucial to the founding of the 
Commission and the success of its year-long study.
    Let me also take a moment to acknowledge my fellow cochairs 
for their contributions to the Commission's report, James 
Robinson from the Department of Justice, Clyde Hart of the 
Maritime Administration, and special thanks to Admiral Loy, who 
was a very active participant as a Commission member.
    Senator the Interagency Commission uncovered a great deal 
to be concerned about at our Nation's seaports. These include 
security lapses that jeopardize our fight against drug-
smuggling, exposure of internal conspiracies, trade fraud, 
cargo theft, stolen vehicles, and other serious crime.
    The good news is the Commission also judged partnership 
between the federal and private sectors at 12 major seaports it 
surveyed to be productive. It also found coordination among the 
law enforcement agencies at all levels to be good. Clearly, the 
basis for cooperation exists to improve conditions in our 
seaport environment. Our challenge now is to focus that 
cooperation and provide the proper resources to make it 
effective.
    The recommendations contained in the Commission's report 
are the result of extensive research, onsite visits, and public 
listening sessions conducted with the major stakeholders in 
seaport security. I believe these proposals meet the 
President's goal of devising solutions that are viable, cost-
effective, and sound.
    From a customs standpoint, implementation of these measures 
will go a long way in addressing weaknesses along one of the 
most critical fronts in our border mission. Booming activity at 
our Nation's seaports is yet another welcome sign of our 
prosperous times, but it also presents unique challenges for 
our agency. We have to process all of that added commerce with 
an eye toward protecting America from crime.
    The fact is, every extra ship, every extra container 
presents added opportunities for drug smugglers. The 12 
seaports the Commission surveyed accounted for 69 percent of 
all cocaine by weight seized from commercial cargo shipments 
and vessels, one half of all marijuana, and 12 percent of all 
heroin. Clearly, there is a serious threat out there that we 
must do a better job of addressing.
    Half the battle will be in knowing exactly what we are up 
against. The Commission has proposed an annual threat 
assessment for seaports handling major volumes of international 
trade. This information will lay the groundwork for a 
coordinated federal response to the problem of drug-smuggling 
and other serious seaport crime.
    The report also recommends several key initiatives that 
will directly impact customs ability to target contraband. 
These include enhancing the quality of manifest information, 
the shippers' documentation we use to select high-risk goods. 
We need regulatory changes that standardize manifest 
information and require its advance delivery to customs in 
electronic form.
    We must also develop and implement our new automated system 
for processing goods, the Automated Commercial Environment, or 
ACE, as we call it. ACE represents one of customs' most 
critical infrastructure needs. Among its many features is an 
enhanced ability to use manifest information for selecting 
suspect cargo.
    Of course, the best targeting plans can be laid to waste by 
internal conspiracies. That is why we need to implement better 
controls at seaport facilities. Customs welcomes the 
Interagency Commission's recommendation to achieve this through 
strengthening physical security, tightening controls on the 
movement of goods, and limiting who has access to sensitive 
areas.
    Clearly, we stand to benefit as well from acquiring better 
technology. The report calls for a 5-year crime and security 
technology plan to identify the tools we need to enhance 
security at our seaports. Much of this can be drawn from 
customs experience in utilizing technology at other points 
along our borders.
    Related to our technology needs, we must devise common 
systems for sharing information about the movement of vessels, 
passengers, and goods through our seaports. The report calls 
for a coordinated effort by the principal federal agencies 
involved in national security to achieve this goal.
    Finally, I would like to highlight the need for added 
manpower to implement these changes. The fact remains that 
despite the gains technology and better information offer us, 
we must have the personnel available to contend with our 
spiraling workload.
    Mr. Chairman, Senator Hollings, this is by no means an 
exhaustive list. I fully support all the recommendations made 
by the Interagency Commission. Taken together, they form an 
effective start in addressing the problems we face at our major 
seaports.
    Again, I am proud of the work of the Commission and the 
contribution of its members, but in truth we have only just 
begun our work. I hope that with the help of this Committee we 
can take the next important step and address the critical 
resource challenges that we face in strengthening seaport 
security. Again, thank you for the opportunity to testify.
    [The prepared statement of Mr. Kelly follows:]

             Prepared Statement of Hon. Raymond W. Kelly, 
                   Commissioner, U.S. Customs Service
    Mr. Chairman, Senator Hollings, Members of the Committee . . .
    Thank you for this opportunity to testify on the report of the 
Interagency Commission on Crime and Security in U.S. Seaports.
    I sit before you today in two different roles: the first, as a co-
chair of the Interagency Commission, and contributor to its work. The 
second, as head of one of the federal agencies most profoundly impacted 
by the Commission's findings and its recommendations. I would like to 
offer you my perspectives from both sides.
    Before I begin, let me express the Commission's gratitude to 
Senator Graham of Florida. Senator Graham's leadership was crucial to 
the founding of the Commission and the success of its year-long study.
    Let me also take a moment to acknowledge my fellow co-chairs for 
their contributions to the Commission's report . . . James Robinson 
from the Department of Justice, and Clyde Hart, of the Maritime 
Administration. A special thanks as well to Admiral Loy of the Coast 
Guard for his participation as a Commission member.
    Mr. Chairman, the Interagency Commission uncovered a great deal to 
be concerned about at our nation's major seaports. These include:
    Security lapses that jeopardize our fight against drug smuggling; 
exposure to internal conspiracies; trade fraud; cargo theft; stolen 
vehicles; and other serious crime.
    The good news is the Commission also judged partnership between the 
federal and private sectors at the 12 major seaports it surveyed to be 
productive. It also found coordination among law enforcement agencies 
at all levels to be strong.
    Clearly, the basis for cooperation exists to improve conditions in 
our seaport environment. Our challenge now is to focus that 
cooperation, and provide the proper resources to make it effective.
    The recommendations contained in the Commission's report are the 
result of extensive research, on-site visits, and public listening 
sessions conducted with the major stakeholders in seaport security. I 
believe these proposals meet the president's goal of devising solutions 
that are viable, cost-effective, and sound.
    From a Customs standpoint, I believe implementation of these 
measures will go a long way in addressing weaknesses along one of the 
most critical fronts in our border mission.
    Booming activity at our nation's seaports is yet another welcome 
sign of our prosperous times. But it also presents unique challenges 
for our agency. We have to process all of that added commerce with an 
eye towards protecting America from crime.
    The fact is every extra ship, every extra container, presents added 
opportunities for drug smugglers. The twelve seaports the Commission 
surveyed accounted for 69 percent of all cocaine by weight seized from 
commercial cargo shipments and vessels, over half of all marijuana, and 
twelve percent of all heroin. Clearly, there is a serious threat out 
there that we must do a better job of addressing.
    Half the battle will come in knowing exactly what we're up against. 
The Commission has proposed an annual threat assessment for seaports 
handling major volumes of international trade. This information will 
lay the groundwork for a coordinated, federal response to the problem 
of drug smuggling and other serious seaport crime.
    The report also recommends several key initiatives that will 
directly impact customs' ability in targeting contraband. These 
include:
    Enhancing the quality of manifest information, the shipper's 
documentation we use to select high-risk goods.
    We need regulatory changes that standardize manifest information, 
and require its advance delivery to customs in electronic form.
    We must also develop and implement our new automated system for 
processing goods, the Automated Commercial Environment, or ACE. ACE, as 
the members know, represents one of customs' most critical 
infrastructure needs. Among its many features is an enhanced ability to 
use manifest information for selecting suspect cargo.
    Of course, the best targeting plans can be laid to waste by 
internal conspiracies. That's why we need to implement better controls 
at seaport facilities. Customs welcomes the Interagency Commission's 
recommendations to achieve this through strengthening physical 
security; tightening controls on the movement of goods; and limiting 
who has access to sensitive areas.
    Clearly, we stand to benefit as well from acquiring better 
technology. The report calls for a 5-year crime and security technology 
plan to identify the tools we need to enhance security at our seaports. 
Much of this can be drawn from Customs' experience in utilizing 
technology at other points along our borders.
    Related to our technology needs, we must devise common systems for 
sharing information about the movement of vessels, passengers, and 
goods through our seaports. The report calls for a coordinated effort 
by the principal federal agencies involved in national security to 
achieve this goal.
    Finally, I would highlight the need for added manpower to implement 
these changes. The fact remains that despite the gains technology and 
better information offer us, we must have the personnel available to 
contend with our spiraling workload.
    Mr. Chairman, this is by no means an exhaustive list. I fully 
support all the recommendations made by the Interagency Commission. 
Taken together, they form an effective start in addressing the problems 
we face at our major seaports.
    Again, I am proud of the work of the Commission and the 
contribution of its members. But in truth, we have only just begun our 
work. I hope that with the help of this Committee, we can take the next 
important step, and address the critical resource challenges that we 
face in strengthening seaport security.
    Thank you for this opportunity to testify. I'd be happy to take 
your questions now.

    Senator Hollings. Thank you, very much, Commissioner. 
General Robinson, we welcome you.

        STATEMENT OF HON. JAMES K. ROBINSON, ASSISTANT 
   ATTORNEY GENERAL, CRIMINAL DIVISION, DEPARTMENT OF JUSTICE

    General Robinson. Mr. Chairman, Senator Graham, I want to 
join my cochairs in complimenting and expressing our 
appreciation to Senator Graham for being the catalyst for 
putting together this interagency process. I can tell you from 
my vantage point the opportunity to work with the other 
agencies on this critical problem was an eye-opening 
experience, to see the vulnerabilities at our seaports, but 
also the great opportunities in the area of protecting the 
Nation's security, and also addressing serious crime problems.
    I will abbreviate my comments to leave room for questions, 
but I can tell you that we at the Justice Department will be 
looking to the report for guidance in how we can improve law 
enforcement efforts along the seaports.
    From a law enforcement perspective, seaports are critical 
border control points that afford law enforcement unique 
opportunities to employ warrantless searches of cargo, to 
intercept contraband and other goods being transported 
illegally into our country.
    The effectiveness of this border control function has crime 
and national security implications for all parts of the United 
States, not just the seaports themselves. The illegal drugs, 
other contraband, and aliens that come into our country through 
seaports do not stop at the seaports. They end up dispersed 
throughout the country. Similarly, the stolen cars and other 
stolen goods that are smuggled out of the United States are not 
stolen from seaports. They are the fruits of crime that can 
occur anywhere.
    It is also important to not lose sight of the international 
dimension of crime and security issues at our seaports 
international cargo and passengers by definition originate in 
foreign countries. If we have stronger law enforcement partners 
in those countries, we can be more effective in stopping the 
flow of illegal drugs and other criminal activities that use 
our seaports.
    Addressing seaport crime and security should be in that 
sense a component of a larger international crime control 
strategy that involves enhancing our efforts to provide 
international training and other technical support to law 
enforcement and promote the rule of law throughout the world, 
particularly in countries that are ports of origin or key 
transit points for illegal trafficking offenses.
    This was a wonderful experience to learn as much as the 
Commission was able to learn about this very important issue, 
and we at the Department can pledge to the chairman we are 
happy to work with you as you proceed in attempting to 
implement some of the recommendations made by this Commission.
    Thank you.
    [The prepared statement of Mr. Robinson follows:]

   Prepared Statement of Hon. James K. Robinson, Assistant Attorney 
           General, Criminal Division, Department of Justice
    Mr. Chairman, Ranking Member Hollings and other Members of the 
Committee, I am Jim Robinson, the Assistant Attorney General for the 
Criminal Division of the Department of Justice. I am happy to have an 
opportunity today, along with my two Co-Chairs from the Inter-agency 
Commission on Crime and Security in U.S. Seaports, to discuss with the 
Committee the Commission's findings and recommendations. I think it is 
fair to say that the Commission's Report reflects the first inter-
agency attempt to look comprehensively at the broad range of crime and 
security issues involving seaports. These are important issues that 
certainly deserve the attention of Congress and the Executive Branch, 
especially as the volume of international commerce through our seaports 
continues to expand. I commend this Committee for having this hearing 
and for focusing attention on these issues, which I believe have 
tremendous potential implications for law enforcement and our national 
security.
    I want to thank my Co-Chairs, the other Commissioners, and, 
particularly, the staff of the Commission, for all their hard work in 
gathering the facts, sifting through the policy implications, and 
preparing the final report. One thing that quickly became apparent as 
the Commission set about its work is the tremendous complexity of 
seaport crime and security issues. A large number of government 
agencies--federal, state, local, and federal--have interests in these 
issues. In the private sector, there is an even broader array of 
stakeholders. Everybody had a slightly different perspective on the 
problem.
    We also quickly realized that although there are general crime and 
security issues common to most ports, the specific security issues vary 
tremendously depending on the size and nature of the port. Seaport 
security is an area where we have to be sensitive to local 
circumstances. One size will not fit all. The Commission's Report 
recognizes this, and the Report's recommendations emphasize--wisely, in 
my view--the importance of port-specific crime and security measures as 
well as more general national standards.
    The Commission's findings and recommendations are the product of 
extensive inter-agency discussion and negotiation, reflecting input 
from many different perspectives. In order to build a consensus, there 
were inevitable compromises. In the end, however, we were able to 
produce a final report that was supported by every Commissioner and 
which provides a solid inter-agency foundation on which agency-specific 
budget, policy and planning efforts can build.
    Certainly, we at the Justice Department will be looking to the 
Report for guidance in how we can improve law enforcement efforts 
involving seaports. From a law enforcement perspective, seaports are 
critical border control points that afford law enforcement unique 
opportunities to employ warrantless searches of cargo and persons to 
intercept contraband and other goods being transported illegally into 
our country. The effectiveness of this border control function has 
crime and national security implications for all parts of the United 
States, not just the seaports themselves. The illegal drugs, other 
contraband, and aliens that come into our country through seaports do 
not stop at the seaports; they end up dispersed throughout the country. 
Similarly, the stolen cars and other stolen goods that are smuggled out 
of the country are not stolen from the seaports; they are the fruits of 
crime that can occur anywhere.
    Many of the Report's recommendations involving physical and 
personnel security will help enhance the effectiveness of our 
interdiction efforts--on both the import and the export side. The 
Report properly emphasizes the need for better technology for 
inspections and improved intelligence gathering and sharing systems. 
Without forward-looking improvements in the efficiency and precision of 
our border inspection and investigative efforts, we cannot expect to 
keep pace with increasing volumes of trade in the future. The benefits 
of these changes will be felt not just in the seaports, but potentially 
anywhere that is reached by goods that travel in international 
commerce.
    Finally, it is important that we not lose sight of the 
international dimension of crime and security issues at our seaports. 
International cargo and passengers by definition originate in foreign 
countries. If we have stronger law enforcement partners in those 
countries, we can be more effective in stopping the flow of illegal 
drugs and other criminal activity that use our seaports. Addressing 
seaport crime and security should in that sense be a component of a 
larger international crime control strategy that involves enhancing our 
efforts to provide international training and other technical support 
to support law enforcement and promote the rule of law, particularly in 
countries that are points of origin or key transit points for illegal 
trafficking offenses.
    At this point, I would be happy to answer questions from the 
Committee.

    Senator Hollings. Thank you. Very good. Mr. Tousseau.

          STATEMENT OF JOHN TOUSSEAU, EXECUTIVE BOARD 
       MEMBER, INTERNATIONAL LONGSHORE & WAREHOUSE UNION

    Mr. Tousseau. Good morning, Mr. Chairman and Members of the 
Committee. My name is John Tousseau, and I am appearing on 
behalf of the International Longshore and Warehouse Union 
president, James Spinoza, and the 60,000 working men and women 
of the ILWU. I have been a member of the ILWU for 33 years, and 
have for the past 7 years served on my union's national 
executive board which makes governing decisions for the ILWU.
    Let me first thank Chairman McCain, and I hope he did not 
leave, because UCLA beat Arizona the other day, and Senator 
Hollings for inviting us to share our view on the report of the 
Interagency Commission on Crime and Security in the United 
States Seaports and the solutions that will be considered by 
the Committee and other Members of Congress.
    The ILWU represents longshore workers on the West Coast and 
warehouse workers in ports and surrounding areas, port guards, 
and a marine division consisting of towboat and barge workers. 
We are therefore in a unique position to help to address the 
problems of crime and security at our Nation's ports, and we 
actively participated in the public forums hosted by the 
Commission and submitted written documents, written comments 
that are attached to my testimony.
    I regret that we have not had time to fully consider all 
the findings and recommendations made by the Commission. This 
will need to be done by our members through the democratic 
process that our union relies on. However, I hope my testimony 
will be useful to the Committee, given my over 30 years of 
experience in working in the industry.
    Members of the ILWU are committed to making our ports and 
surrounding areas safe and secure and free from criminal 
activities. In fact, it must be remembered that port security 
is about more than cargo and illegal contraband. It is also the 
physical safety of the port employees working with containers 
on a daily basis.
    I know that a lot of time we receive hazardous containers 
that are not properly marked, and that can be detrimental to 
the health and welfare to our longshore people who are working 
there.
    We have a vested interest in addressing the problems 
identified by the Commission, and strongly believe that we 
should be viewed as part of the problem and not as an automatic 
security threat, as some might have you believe.
    Unfortunately, the imposition of arbitrary and extensive 
criminal background checks on all port employees would create 
this exact situation. You cannot expect port workers to offer 
assistance in stopping crime if at the same time you are 
telling them they are automatic suspects simply because they 
work in a port and carry a union card. A number of our Nation's 
ports also impose criminal background checks, and I have 
enclosed letters on the subject from the Port of Los Angeles, 
the Port of Seattle, and the Port of Tacoma. The Port of Tacoma 
points out that ILWU has been an important partner in keeping 
the docks free from drug-smuggling and that the instincts of 
one longshore worker led to the largest cocaine seizure in the 
port's history.
    The Commission report identifies internal conspiracies 
which may include port employees as presenting the most serious 
challenge to drug interdiction efforts at seaports. While we 
are aware of some bad apples in our industry, it is patently 
unfair and contrary to sound security policy to paint all ports 
and all workers with the same broad brush. In fact, it must be 
emphasized, as we have done in the past, that the ILWU will not 
tolerate criminal activities by our members, and we have no 
knowledge of any member involved in the international drug 
trade or conspiracies as described by the Commission.
    Let me talk for a few minutes about some of the specific 
recommendations that have been made by the Commission and that 
have been incorporated into the legislation introduced by 
Senator Hollings. The Port and Maritime Security Act of 2000, 
S. 2965, would require the Port Security Task Force to issue 
guidelines that outline which workers in a port facility should 
have access to sensitive areas.
    As a part of this effort, the task force is required to 
consider the desirability and the feasibility of utilizing 
criminal background checks. As explained earlier, we strongly 
oppose intrusive criminal background checks on all our workers, 
and thus do not believe that this is a legitimate area for a 
nonelected body to explore. It is especially troubling, given 
the fact that there is no requirement in the bill that 
longshore workers and their unions be represented on the task 
force. If changes to our work environment are going to be 
considered, at a minimum we should have a seat at the table.
    We are also concerned that the bill sets up the debate on 
background checks using vague terms and concepts. For example, 
the bill talks about the need to secure a sensitive area, but 
does not define that term. The scope of any criminal checks are 
not established. No privacy protections are contemplated, and 
no limitations on what can be investigated are put into place.
    Both the report and S. 2965 discuss the need to improve the 
professionalism of port security officers. We could not agree 
more with this goal, but we are concerned that little has been 
said about the need to increase the number of security guards 
in our ports. While there are some limited regulations in this 
area, they are not universally enforced and do not adequately 
define what are acceptable security standards.
    Luisa Gratz, president of the ILWU Southern California 
District Council, wrote to the Commission proposing minimum 
staffing standards for security personnel, which we urge this 
Committee to support. Sister Gratz cites the following problems 
that are created when adequate staffing standards are not 
required and enforced, including the fact that frequently there 
is only one guard on some terminals. If there is an incident of 
any kind that causes the lone security officer to be hurt or 
otherwise occupied, there is no other security on the facility 
to take care of the emergencies.
    I also want to comment briefly on the report's emphasis on 
the need to enhance electronic surveillance systems. As already 
discussed, the port area is our workplace, and like any 
American we are concerned about overly intrusive efforts to 
track innocent movements and watch every action that we may 
take on a given day. Given the sensitivity of this issue, we 
will need to discuss this matter with our members, and look 
forward to working with officials to strike a proper balance 
between security needs and legitimate privacy rights.
    The Commission's findings in recommendation 11 states that 
vessel manifest information, import and export, is sometimes 
deficient for the purposes of import risk assessment and export 
cargo control. It recommends that all ocean manifests be 
transmitted electronically to customs sufficiently in advance 
of the arrival of the vessel to allow manifest information to 
be used effectively.
    It also recommends that all other agencies having 
enforcement or regulatory responsibilities at the border 
arrange for information to be distributed on a real-time basis 
to all agencies having an interest in the goods covered by a 
particular entry. The marine clerk typically does not receive 
the manifest. In the past we did receive manifests. We would 
look through the manifest and discuss things, but now with the 
electronic revolution and new technologies, things are 
automatically just faxed over the airways, and consequently a 
clerk does not have the tools to perform the duties assigned to 
him. With adequate information, the marine clerks could be more 
effective in spotting and reporting suspicious activity like 
contraband, import and export, drugs and tariff evasions to 
authorities.
    Mr. Chairman, Members of the Committee, we will be 
discussing the full report in the months ahead at the longshore 
caucus meetings and other forums where we can discuss and 
debate the various findings and recommendations of the 
Commission. We need to fully consider the cost of the 
Commission's recommendations to our industry, and whether new 
costs will lead to diversion of cargo to Canada and Mexico. 
Studies have revealed that one longshore job equates to 10 
indirect jobs in the immediate community and as many as 100 in 
the State of California.
    We also need to discuss how the recommendations would 
affect the tremendous pressure on longshore workers to get 
these containers off the ship and off the dock for just-in-time 
delivery. Furthermore, we need to fully discuss the aspects of 
the report that could be handled more effectively by state and 
local government, rather than the federal government.
    The ILWU looks forward to working with the Committee to 
address the concerns identified by the Commission in a balanced 
and fair manner that will protect the rights of our members and 
will truly enhance port security and safety. Thank you for 
inviting me to testify today.
    [The prepared statement of Mr. Tousseau follows:]

     Prepared Statement of John Tousseau, Executive Board Member, 
               International Longshore & Warehouse Union
    Good Morning, Mr. Chairman and Members of the Committee. My name is 
John Tousseau and I am appearing on behalf of International Longshore 
and Warehouse Union (ILWU) President James Spinosa and the 60,000 
working men and women of the ILWU. I have been a member of the ILWU for 
33 years and have for the past seven years served on my union's 
International Executive Board, which makes governing decisions for the 
ILWU.
    Let me first thank you Chairman McCain and Senator Hollings for 
inviting us to share our view on the report of the Interagency 
Commission on Crime and Security in United States Seaports (Commission) 
and the solutions that will be considered by this Committee and others 
in Congress. The ILWU represents longshore workers on the West Coast, 
warehouse workers in ports and surrounding areas, port guards and a 
marine division consisting of towboat and barge workers. We are 
therefore in a unique position to help address the problems of crime 
and security at our nation's ports and we actively participated in the 
public forums hosted by the Commission and submitted written comments 
that are attached to my testimony. I regret that we have not had time 
to fully consider all the findings and recommendations made by the 
Commission--this will need to be done by our members through the 
democratic process that our union relies on. However, I hope my 
testimony will be useful to the Committee given my over 30 years of 
experience in working in this industry.
    The members of the ILWU are committed to making our ports and 
surrounding areas safe, secure and free of criminal activities. In 
fact, it must be remembered that the port security is about more than 
cargo or even illegal contraband, it is about the physical safety of 
port employees. We have a vested interest in addressing the problems 
identified by the Commission and strongly believe that we should be 
viewed as part of the solution and not as an automatic security threat 
as some might have you believe. Unfortunately, the imposition of 
arbitrary and extensive criminal background checks on port employees 
would create this exact situation. You cannot expect port workers to 
offer assistance in stopping crime if at the same you are telling them 
they are automatic suspects simply because they work in a port and 
carry a union card.
    This is not only our view. When the House was debating this matter 
in September of 1998 Representative Jerrold Nadler (D-NY) told his 
colleagues that ``it takes little imagination to conclude that if you 
want to stop the infestation of our citizens with dangerous drugs, then 
make working men and women employed at the transportation choke 
points--such as longshore workers--a major part of the solution by 
enlisting them as partners in this crucial endeavor.'' He further 
commented on criminal background checks, ``we are passing value 
judgements about their criminal records or intentions with no 
justification other than anecdote.''
    A number of our nation's ports also oppose criminal background 
checks and I have enclosed letters on the subject from the Port of Los 
Angeles, the Port of Seattle, and the Port of Tacoma. The Port of 
Tacoma points out that the ILWU has ``been an important partner in 
keeping the docks free of drug smuggling'' and that the instincts of 
one longshore worker led to the largest cocaine seizure in the Port's 
history.\1\
---------------------------------------------------------------------------
    \1\ Former Commission Executive Director Lynn Gordon commented to 
our Washington, D.C. representative that she was impressed with the 
level of cooperation between Customs, longshore workers, police, 
employers, and the Port of Tacoma. She was impressed that the 
stakeholders at the Port of Tacoma tend to treat each other as equals 
and believed the Commission could encourage other ports to develop a 
similar cooperative structure. The ILWU believes that if Congress 
begins to question the character and integrity of the workers on the 
front line, then we lose the equality in the partnership.
---------------------------------------------------------------------------
    The Commission report identifies internal conspiracies, which may 
include port employees, as presenting the most serious challenge to 
drug interdiction efforts at seaports. While we are all aware of some 
``bad apples'' in our industry, it is patently unfair and contrary to 
sound security policy to paint all ports and all workers with the same 
broad brush. In fact, it must be emphasized, as we have done in the 
past, that the ILWU will not tolerate criminal activities by our 
members and we have no knowledge of any member being involved in the 
international drug trade or conspiracies as described by the 
Commission.
    We are disturbed that in an effort to support their ``criminal 
conspiracy'' argument, the Commission makes some vague and questionable 
allegations about activities at ILWU ports. For example, the report 
makes reference to a case in Los Angeles/Long Beach concerning 587 
pounds of cocaine that was seized in nine duffel bags in a tail end of 
a container from Colombia intended for Vancouver, British Columbia. 
After the seizure, a controlled delivery of the cocaine to Canada was 
conducted. The report suggests that the Royal Canadian Mounted Police 
revealed an extensive internal conspiracy involving dockworkers at the 
seaport in Vancouver.
    At the time of this incident, ILWU Canadian President Tom Dufresne 
stated clearly on March 5, 1998 that if officials believe that there 
are individuals that are engaged in criminal activity then they should 
take appropriate action. Dufresne added, ``we're a very proud 
workforce, very proud union members, to be a member of the 
International Longshore and Warehouse Union is one of the high points I 
think in anybody's life when they get accepted into the membership, and 
I don't believe people should have to go around apologizing for being 
longshore workers.'' To date, no arrests of dockworkers have been made 
in connection with this case, according to Dufresne. We believe it was 
patently unfair for the Commission to take a leaked allegation and 
subsequent press reports fingering members of the ILAFU and present the 
allegation as fact. It is this type of rush to judgment that will only 
hamper efforts in the port to create cooperative relationship designed 
to stop criminal enterprises
    Let me talk for a few minutes about some of the specific 
recommendations that have been made by the Commission and that have 
been incorporated into the legislation introduced Senator Hollings, the 
Port and Maritime Security Act of 2000 (S. 2965). S. 2965 would require 
the Port Security Task Force to issue guidelines that outline which 
workers in a port facility should have access to sensitive areas. As 
part of this effort, the Task Force is required to consider the 
desirability and feasibility of utilizing criminal background checks. 
As explained earlier, we strongly oppose intrusive criminal background 
checks on all our workers and thus do not believe that this is a 
legitimate area for a non-elected body to explore. It is especially 
troubling given the fact that there is no requirement in the bill that 
longshore workers and their unions be represented on the Task Force. If 
changes to our work environment are going to be considered, at a 
minimum we should have a seat at the table.
    We are also concerned that the bill sets up the debate on 
background checks using vague terms and concepts. For example, the bill 
talks about the need to secure a ``sensitive area'' but does not define 
that term, the scope of any criminal checks is not established, no 
privacy protections are contemplated and no limitations on what can be 
investigated are put into place.
    Both the report and S. 2965 discuss the need to improve the 
professionalism of port security officers. We could not agree more with 
this goal, but we are concerned that little has been said about the 
need to increase the number of security guards at our ports. While 
there are some limited regulations in this area, they are not 
universally enforced and do not adequately define what are acceptable 
security standards.\2\ Luisa Gratz, President of the ILWU Southern 
California District Council wrote to the Commission proposing minimum 
staffing standards for security personnel, which we urge this Committee 
to support. Sister Gratz cites the following problems, which are 
created when adequate staffing standards are not required and enforced:
---------------------------------------------------------------------------
    \2\ 33 CFR Part 126.15(a) requires that terminal operators handling 
hazardous cargo must provide guards in such numbers and of such 
qualifications as to assure adequate surveillance, prevent unlawful 
entrance, detect fire hazards and check the readiness of protective 
equipment.

  <bullet> Unauthorized pedestrians enter waterfront facilities with 
        little interference through employee turnstiles, parking areas 
---------------------------------------------------------------------------
        and unattended gates.

  <bullet> Unauthorized persons embark upon vessels because there are 
        no requirements for terminal owners or operators to provide 
        gangway security.

  <bullet> Unauthorized persons enter terminals where there is 
        insufficient gate security to handle the traffic on entry lanes 
        for both truck and vehicular traffic and also exit lanes 
        simultaneously.

  <bullet> In an attempt to cuts costs, a terminal owner or operator 
        will only have one security officer for an entire facility, 
        leaving the operation vulnerable in numerous areas. Regularly 
        these owners and operators will require this lone security 
        officer to periodically roam the facility. When this occurs, 
        that lone officer is also required to lock the gates making 
        emergency Coast Guard, HAZMAT, police, Customs and fire 
        department personnel and their vehicular entry impossible.

  <bullet> Frequently, there is only one guard on some terminals. If 
        there is an incident of any kind that causes the lone security 
        officer to be hurt or otherwise occupied, there is no other 
        security on the facility to take care of emergencies.

  <bullet> Rail gates and rail operations will require greater 
        security. As rail operations increase so will the opportunity 
        for stowaways and other unauthorized activity.

    Again, we believe that enacting minimum security personnel manning 
standards should be a priority as Congress endeavors to secure our 
nation's seaports.
    I also want to comment briefly on the report's emphasis on the need 
to enhance electronic surveillance systems. As already discussed, the 
port area is our workplace and like any American, we are concerned 
about overly intrusive efforts to track innocent movements and watch 
every action that we may take in a given day. Given the sensitivity of 
this issue, we will need to discuss this matter with our members and we 
look forward to working with officials to strike the proper balance 
between security needs and legitimate privacy rights.
    The Commission's Finding and Recommendation 11 states that vessel 
manifest information, import and export, is sometimes deficient for the 
purposes of import risk assessment and export cargo control. It 
recommends that all ocean manifests be transmitted electronically to 
Customs sufficiently in advance of the arrival of the vessel to allow 
manifest information to be used effectively. It also recommends that 
all other agencies having enforcement or regulatory responsibilities at 
the border arrange for the information to be distributed on a real-time 
basis to all agencies having an interest in the goods covered by a 
particular entry. The marine clerk typically does not receive the 
manifests and consequently does not have the tools to perform the 
duties assigned to him. With adequate information, the marine clerks 
could be more effective in spotting and reporting suspicious activity 
like contraband import and export, drugs, and tariff evasion to 
authorities.
    Years ago, there was a Customs officer assigned on every dock who 
relied on the experience of people like me to report suspicious cargo. 
However, documents no longer pass through hands of flesh and blood like 
mine but rather through cyber links with less and less proximity to the 
point of production. The vulnerable weak links are electronic. Manifest 
inspecting, in-bond and transit confirmations and other functions have 
been relegated to an increasing volume of deferred inspections, 
samplings and document verifications that were once required dock 
functions and now are left to cyber chance. Budget restrictions for 
Customs programs and decreased staffing levels for Customs agents and 
dock delivery and receiving book functions are a significant threat to 
national security in the maritime sector.
    Bob Carson, a marine clerk from San Francisco testified on this 
subject at the Commission's public forum in San Francisco. He made the 
point, which I agree with, that the AMS (Automated Manifest System) has 
deep flaws, mainly in the in-bond movements, which allow a shell game 
to be played out with many containers across many ports of 
transshipment. It is not uncommon for a container originating in the 
Orient to be transloaded, transshipped, ``feeder shipped'', etc., 
before it even gets to cross the Pacific. Once it arrives somewhere on 
our Coast, the same process in reverse is played out, i.e., diverted 
from one port to another where it is taken off a local clearance and 
moved ``in bond'' to points thousands of miles away. Not infrequently, 
containers and their throughput simply disappear off the computer 
screens. As volume increases, it will become infinitely harder to catch 
these glitches where the real threat of smuggling and tariff evasion 
lies. Nothing should move off the dock until the steamship line 
presents a hard copy customs manifest. The Clerks must make sure all 
the information is correct before the containers are released off dock 
into the United States.
    Mr. Chairman and Members of the Committee, we will be discussing 
the full report in the months ahead at Longshore Caucus meetings, and 
other forums where we can discuss and debate the various findings and 
recommendations of the Commission. We need to fully consider the cost 
of the Commission's recommendations to our industry and whether new 
costs will lead to diversion of cargo to Canada and Mexico. Studies 
have revealed that one longshore job equates to ten indirect jobs in 
the immediate community and as many as 100 in the State of California. 
We also need to discuss how the recommendations would affect the 
tremendous pressure on longshore workers to get these containers off 
the ship and off the dock for just-in-time delivery. Furthermore, we 
need to discuss aspects of the report that may be handled more 
effectively by state or local government.
    The ILWU looks forward to working with the Committee to address the 
concerns identified by the Commission in a balanced and fair manner 
that protects the rights of our members and that will truly enhance 
port security and safety. Thank you for inviting me to testify today.
                                 ______
                                 
         International Longshore & Warehouse Union, AFL-CIO
                                 San Francisco, CA, August 16, 1999
Ms. Lynn Gordon,
Executive Director,
Interagency Commission on Crime and Security in U.S. Seaports,
Washington, DC.

Dear Executive Director Gordon:

    As President of the International Longshore and Warehouse Union, 
representing 60,000 workers in the United States and Canada, I am 
writing to express our views on the work of the President's Commission 
on Seaport Security. As you may know, our union represents longshore 
workers on the West Coast, warehouse workers at our nation's ports, 
port guards, and a marine division working in and around West Coast 
ports. ILWU members have a tremendous stake in the ultimate 
recommendations you make to the President and Congress.
    I was pleased to learn that you had the chance to meet with a 
number of our members from the Ports of Los Angeles and Long Beach, and 
the Ports of Tacoma and Seattle, Washington. Generally, our members are 
hard working, proud, honest, and of course, out-spoken. I believe our 
members are unambiguous in their positions on issues that question 
their integrity and invade their privacy.
    A federal law allowing the Justice Department to perform criminal 
background checks on our members is not an option. In the strongest 
terms possible, I urge you to affirmatively reject such a draconian 
approach to seaport security. You must understand that it was the 
Federal Bureau of Investigation that for twenty long years illegally 
wiretapped the phones of ILWU leaders, monitored their mail, and 
wrongfully imprisoned them. It was not a matter of corruption that 
motivated the FBI for there was never any hint of corruption within the 
ILWU leadership. No, the full force of the FBI attempted to destroy 
this union because the union refused to discriminate against any member 
based on their political beliefs. It was as simple as that--the ILWU 
refused to participate in the dark agenda of the McCarthy era. The 
Justice Department does not have the moral authority to meddle in the 
affairs of an honest, principled labor union and their hard working 
members--period.
    Productivity will suffer greatly on the West Coast if criminal 
background checks are conducted on ILWU members. The members of the 
longshore division have a history of taking it upon themselves to 
remedy the unfair treatment of just one worker including work stoppages 
along the entire Coast. ``An injury to one is an injury to all'' is a 
slogan adopted by the union and I can assure you it is taken quite 
literally by the membership. There is no chance--zero--that our 
employer will see the productivity gains which they envision in a 
hostile environment in which our members integrity is constantly being 
questioned.
    Supposedly, Rep. Clay Shaw introduced H.R. 318 as a tool to halt 
the flow of drugs into the United States. On the West Coast, drugs have 
been stopped when longshore workers reported suspicious activity to the 
Customs officials. It is ironic that the Shaw legislation would have 
the unintended consequence of impeding cooperation between union 
members and Customs. More drugs--not less--would flow through our 
nation's ports if the Shaw legislation became law.
    It is my understanding that the Commission solicited the views of 
ILWU members on wearing Identification badges. That is an issue that 
our employer has raised in the past and continues to be handled through 
negotiations. Members do carry identification cards with them and could 
easily produce them if asked. Identification badges are unnecessary and 
any requirement to wear them should be negotiated between the employer 
and the union.
    I am sure you are aware that our ILWU marine clerks are receiving 
less than adequate information about the cargo on ships calling our 
ports. Before the technology revolution, clerks would receive bills of 
lading and ships manifests so they could adequately facilitate and 
track the flow of cargo and to assess the risks if any of the cargo to 
longshoremen and other port workers. Today, Customs clears cargo 
electronically so vital information is not at the point of production 
and therefore denied to marine clerks. The front line workers are 
unable to help authorities in cases involving theft or 
misclassification of cargo because they are denied information. This 
practice of denying information to marine clerk professionals is 
untenable and should be changed.
    I am sure you were made aware by Sister Luisa Gratz, of the urgent 
needs of guards at our ports. Marine terminal operators are simply not 
providing enough guards to prevent problems. It appears to me that 
operators are violating current law by not providing a sufficient 
number of guards to assure adequate surveillance, prevent unlawful 
entrance, detect fire hazards and check the readiness of protective 
equipment, and to respond to emergency situations. The ILWU Southern 
California District Council supports the adoption of a new law 
mandating manning and training requirements for guards. Penalties would 
be assessed on operators that fail to comply with the law. The 
International would support such a proposal as well.
    In sum, our members are hard working and honest. Our people do not 
steal. They do not smuggle drugs. They are not a threat to port 
security. Based upon results along with my personal experience of over 
30 years at West Coast docks there is no evidence of waterfront workers 
including port authority workers, maintenance security, and warehouse 
workers, ever participating in the smuggling of contraband. I challenge 
anyone to show me otherwise. We suggest that the Commission enlist our 
union members as partners in securing our nation's ports rather than 
impose measures that will only exacerbate security problems.
        Sincerely,
                                          Brian McWilliams,
                                                         President.
                                 ______
                                 
                                             Port of Tacoma
                                         Tacoma, WA, August 6, 1999
Hon. Jennifer Dunn,
U.S. House of Representatives,
Washington, DC.

Dear Congresswoman Dunn:

    The Port of Tacoma places a high priority on maintaining its 
waterfront facilities as a safe and secure environment for workers and 
cargo. A bill being considered by Congress, ``The Drug-Free Ports Act'' 
(H.R. 318), has a laudable title but we have several concerns about the 
timing and intent of this legislation.
    H.R. 318, introduced by Rep. Clay, Shaw (FL-R), seeks a national 
solution for a local situation. Though some drug handling problems have 
occurred at ports in Florida, the Port of Tacoma has had a strikingly 
different experience. The longshore workers in Tacoma, members of the 
International Longshore & Warehouse Union (ILWU), have been important 
partners in keeping the docks free of drug smuggling. One illustrative 
occasion occurred several years ago when a longshore crane operator 
reported a wrapped box in a bulk shipment. The instincts of this 
longshore worker led to discovering the largest cocaine seizure in the 
Port's history.
    The bill's provisions, which authorize the Department of Justice to 
grant port authorities (and other local jurisdictions of a state) 
access to criminal background information presents serious privacy 
questions. It is important to note that some measures for addressing 
potential drug problems are already in place. The Pacific Maritime 
Association, which handles matters related to longshore employment, 
currently requires several drug tests. These occur when a longshore 
worker is first hired as a casual, when a longshore worker reaches a 
registered status, and when training on new equipment is conducted. In 
addition, the kind of criminal background information that would be of 
interest to local law enforcement jurisdictions (and port authorities) 
is already available through a National Crime Information Center check.
    The Port of Tacoma is pleased that this important issue is 
currently being reviewed by the White House's Interagency Commission on 
Crime and Security in U.S. Seaports. This Commission, known as the 
``Graham Commission'' (due to its leadership by Senator Bob Graham of 
Florida), is in the process of touring 12 ports around the country and 
will be visiting the Port of Tacoma from August 9-12. This dialogue 
will be an important component in addressing the issues raised in H.R. 
318. By visiting a variety of Ports, the Graham Commission will have a 
broader context for making its recommendations on security 
improvements.
    The Port of Tacoma encourages you to hold off on cosponsoring 
legislation such as H.R. 318 until after the Graham Commission has 
issued its report in April 2000. Thank you for your interest and 
consideration.
        Sincerely,
                                            Andrea Riniker,
                                                Executive Director.
                                 ______
                                 
                                            Port of Seattle
                                                     March l7, 2000
Hon. Adam Smith,
U.S. House of Representatives,
Washington, DC.

Dear Congressmember Smith:

    On behalf of the Port of Seattle, I urge you to refrain from 
cosponsoring H.R. 318 (Drug Free Ports Act). This bill would allow 
those with jurisdiction over a ``port area'' to obtain U.S. Justice 
Department files on individuals they are considering for hire. While 
the bill gives significant authority to local government bodies such as 
the Port, I am not currently convinced that there is sufficient 
evidence to warrant national legislation on this issue
    Government policies ought to encourage cooperation between all the 
parties involved in the work environment. Unfortunately , H.R. 318 does 
just the opposite. Dockworkers in the Seattle-area are very much 
opposed to H.R. 318. Currently, dockworkers cooperate with U.S. Customs 
officials and other law enforcement personnel by reporting suspicious 
activity and serving as active ``monitors'' in the effort to keep our 
docks ``clean.'' In Seattle, we have had no major drug-smuggling 
activities involving those who work on port property or in other areas 
of the waterfront. H.R. 318 was drafted to address a problem in 
Florida. Its utility on the West Coast is questionable and may actually 
be counterproductive as we strive to move goods as quickly and 
efficiently as possible on and off our docks.
    It is important to note that measures to address potential drug 
problems among dockworkers are already in place. The Pacific Maritime 
Association, which handles matters related to longshore employment, 
requires several drug tests. Those occur when a longshore worker is 
first hired (after 50 hours), when he or she reaches a registered 
status (no longer working casually, but put on a permanent payroll) and 
when training on new equipment is conducted.
    While there may be some additional actions warranted in the future 
to address drug smuggling at U.S. ports, H.R. 318 seems heavy-handed 
and unnecessary. Again, I urge you to refrain from cosponsorship of 
this bill. It goes against the sort of cooperation we have worked hard 
to achieve in Seattle. If you have questions, please feel free to 
contact me on this issue.
        Sincerely,
                                                Jack Block,
                                              Commission President.
    cc:
    D. Lynn Gordon, Executive Director-Interagency Commission on Crime 
and Security in U.S. Seaports
    Brian McWilliams, Int'l. President-ILWU
    Pete Jones, Interim Reg. Dir.-Inland Boatman's Union
    Bob Gilmore, President-ILWU Local 9
    Scott Reid, President-ILWU Local 19
    Ian Kennedy, President-ILWU Local 52
    Ron Crabtree, President-ILWU Local 98
                                 ______
                                 
                                        Port of Los Angeles
                                         San Pedro, CA, May 1, 2000

Dear Congressman Shaw:

    I am writing to you to express my concern for H.R. 318 as presently 
written. The Port of Los Angeles is among the busiest in the world and 
a major gateway for cargo arriving in our country to meet the demands 
of commerce and the American public.
    Of particular concern is the provision for port worker background 
checks. Unless there is information regarding security issues which has 
not been revealed, the legislation presupposes a major problem with the 
workers in all of the ports of America. The Port of Los Angeles is one 
of, if not the, safest in our nation. Crime in maritime commerce most 
generally occurs away from the environment of the port, on the highways 
and byways of our nation. To the best of my knowledge, Los Angeles is 
basically secure. The tenants at the Port and the Port Police have a 
record of security and crime suppression which would be envied by most 
governmental jurisdictions. Our Port Police are long-term participants 
in the multi-jurisdictional Cargo Cats organization.
    Since it is our belief that this port is secure, then the reason 
for H.R. 318 needs further explanation prior to applying solutions. Its 
unintended consequence is that it would discourage cooperations among 
all parties involved in the work environment in the ports. Currently, 
all parties, management and labor, cooperate with U.S. Customs 
officials and other law enforcement personnel by reporting suspicious 
activity and serving as active monitors in the effort to keep our piers 
and docks safe and secure.
    If there are facts to the contrary regarding the Port of Los 
Angeles, I should very much like to know them.
    Please consider this expression regarding H.R. 318 while making 
your future considerations of this matter. Thank you for your 
consideration of my view.
        Sincerely,
                                           Larry A. Keller,
                                                Executive Director.
    cc:
    Congressman Michael G. Oxley, 4th District, Ohio
    Congressman Mark Foley, 16th District, Florida
    Congressman Porter J. Goss, 14th District, Florida
    Congressman Mark Souder, 4th District, Indiana
    Congressman Phil English, 21st District, Pennsylvania

    Senator Hollings. Thank you, Mr. Tousseau. I like your 
suggestion that the marine clerks receive those manifests. As 
you say, they are very able to discern immediately whether 
there is some hanky-panky or contraband cargo or whatever, but 
I cannot understand--I do not find in this report any 
inordinate invasion of privacy, particularly in sensitive 
security areas.
    Your objection to the security checks or backgrounds 
checks, and the scanners along the port and everything else of 
that kind, you go into a Wal-Mart and they have a mirror up 
there, and they can monitor behavior. They can follow anybody 
to see whether they are stealing merchandise off the shelves. 
You go into any supermarket, they have got that sort of 
security. We should at least try and scan the dock to see 
whether anybody is illegally entering on a ship or abetting 
some sort of crime. The officer standing at the door has to 
have a background and security check, and he has to take a 
polygraph before he gets a job here on the Capitol Police. With 
respect to your airport personnel and the customs agents 
working, they all have background checks, but all of a sudden 
at the seaports we are not going to have background checks on 
security personnel? Is that your position?
    Mr. Tousseau. Well, during the Vietnam War, when we went 
into sensitive areas, when we had cargo for the military that 
was going to Vietnam, we all had Coast Guard passes and we all 
had security checks. In the past we did.
    Senator Hollings. And it worked.
    Mr. Tousseau. And it worked, and we do have security on the 
terminals at the present time. I work at American President 
Lines in Southern California, which is the biggest terminal on 
the West Coast, if not the United States, and we do have 
security there. Security does monitor, TV cameras. That is not 
what we are saying.
    But if this is to imply that the Commission wants to import 
more than just what is in place now as far as security is 
concerned, cameras, searching restrooms, everything else like 
that, then we are not in favor of that.
    Senator Hollings. Well, I sort of agree with you. I do not 
think we can go overboard, accusing personnel at the ports. It 
is just our own lack here of a policy which is troubling. As I 
understand, reading the report and knowing how the ports 
operate, the primary security responsibility has been done at 
the state level and at the port level through private security.
    However, the Commission report does not find fault with 
long shoremen, Heavens above, it does not say that they are all 
crooks. Just that we might need some sort of security checks in 
sensitive areas.
    I work very closely with Ken Riley at the Charleston port, 
and before him Danny Richardson, and before him George German, 
so I have been 50 years working with ports and longshoremen.
    As a matter of fact, I told one of your agents yesterday 
when he came to see me, that your membership dues are 
responsible for my completing a college education. My sophomore 
year at The Citadel I went aboard a ship with my roommate. We 
were going to sea. We were going to get a job and do something 
to make a living.
    Incidentally there was no security check on the ship. We 
just climbed right on up, and went and found the captain up on 
the top deck, and he said, what do you young fellas want? We 
wanted a job. He said, well, go down to the office and get an 
ILA card, and we would be glad to take you on board, and when 
we found out it was $650 we rushed back to the barracks so we 
would not get caught, because we did not have any $650 to join. 
So I thank you for the high price of membership.
    [Laughter.]
    Senator Hollings. But we want to work closely with you. We 
are not trying to find fault or fix blame. I look at ourselves. 
It is the Congress that has let this thing go. And Senator 
Graham brought it to the attention of the President and got 
this outstanding study here, really in the study we are 
criticizing ourselves. We have got to get more security 
personnel. We have got to get better equipment. We have got to 
fix the security responsibility.
    Along that line, as I understand it now under our 
particular bill, Admiral Loy, the responsibility is fixed with 
the Coast Guard, is that right?
    Admiral Loy. Yes, sir, as I understand the bill, just in 
terms of the task force challenge you have offered us, sir.
    The comment that I would make sort of immediately is to 
seek some recognition for the Interagency Committee on the 
Marine Transportation System, which is already in place as a 
result of the Marine Transportation System study and report 
that we did last year. They have been established, as well as 
has the private representation to the Secretary's council in 
the National Advisory Committee on the MTS. That also is 
already in place. They are meeting.
    We have now, as a result of this Commission's report, 
established a Subcommittee on Security to focus on the specific 
challenges that the report offers, and we are already underway 
in establishing the agenda for both of those Committees. What 
we would certainly want to marry up, sir, is the bill's thought 
process of a task force with the existing effort we have 
already mounted since MTS and the security Commission's report.
    Senator Hollings. But if S. 2965 was passed into law this 
afternoon, where would the responsibility be for security at a 
port in the United States? Where would that be?
    Admiral Loy. We would own it.
    Senator Hollings. That is right, the Coast Guard, just like 
the FAA more or less has it at the airports.
    Admiral Loy. Yes, sir.
    Senator Hollings. Mr. Nagle, suppose we passed S. 2965 this 
afternoon. I understand you do not like it, or you have some 
objections. What specifically would be wrong? What is wrong 
with this bill that we ought to correct?
    Mr. Nagle. Well, sir, I think the first issue is, as the 
Commission report indicated, and as all of the witnesses here 
testified to this morning, what I think is the key is the 
partnership between all of the various federal agencies 
involved, and as you indicated in your initial statement all of 
the various federal agencies that have various responsibilities 
at seaports.
    But in addition to all of those federal agencies, the 
importance is to have the industry itself represented as well; 
labor, the port authorities, state and local governments, so 
that it is a true partnership and the Commission recognizes 
that the most beneficial approach toward improving security is 
to have a cooperative approach between the local and federal 
governments, and industry itself, and we think that is 
important, and that right now, sir, is not included in the bill 
because it is strictly a federal task force.
    As Admiral Loy mentioned, the MTS initiative includes both 
an interagency committee and a national advisory committee, 
which includes private interests, and we think both of those 
are important.
    Senator Hollings. Well, right, and I agree with you, 
probably we should have had in this Commission study the state 
ports represented and the longshoremen represented that are 
doing the operations and doing all of the work, there is no 
question about that, and that is one of the reasons we wanted 
you, particularly both you and Mr. Tousseau, at the hearing 
here today. But is there any specific section of S. 2965 that 
we ought to improve upon or eliminate?
    Mr. Nagle. Well, sir, I think the other issue that we have 
primarily with S. 2965 as it is currently drafted is, again, 
while the Commission report identifies security as primarily a 
federal responsibility with partnership with the locals, S. 
2965 deals significantly with responsibilities at the port 
level, and provides some limited loan guarantees.
    We believe you should look at it from a more holistic 
approach. As the Commission report stated, it is clear that 
federal resources have not kept pace with the growth in trade 
and the various agencies, Coast Guard, Customs, Maritime, 
Justice, do not have adequate resources for personnel nor 
resources to adequately handle the responsibilities that they 
have as well as in partnership with the local ports.
    Ports are investing heavily, but the federal government 
needs to increase its resources as well.
    Senator Hollings. Well, fortunately, General Robinson, we 
have not had any terrorist activity at a port, but there is no 
question that the testimony here now shows that there is $5 
billion in high tech theft, and $4 billion in annual thefts of 
automobiles. We know that there is $5 billion lost in textiles 
coming in that Commissioner Kelly & Customs do not have the 
adequate personnel to check. The FBI itself says it is an $8 to 
$10 billion theft at the ports, so we have got to do a way 
better job.
    Commissioner Kelly, you gave sort of an OMB report, a 
glossary of all the manpower and equipment needed. What are we 
talking about in dollars?
    Mr. Kelly. Senator, what we have done is put together a 
resource allocation model. We used a very reputable consultant 
to come in. I think it is the first time done in the federal 
government. It looks at all of our ports of entry. It is a 
workload-driven report, or vehicle, I should say, to determine 
what we need.
    That has gone forward to Treasury and to OMB. It is being 
studied. I think that is the means by which we can catch up, 
getting close to where we should be. It is difficult to put a 
dollar figure on it, because it will actually change every 
year. It is workload driven.
    We predict that trade will double in the next 5 or 6 years, 
let alone 10 years, so that is the means that I hope will give 
us a picture of what we need to accomplish our mission, and 
then you can put a price tag on it, but it is not an 
insignificant amount of money, no question about it.
    We need an automated system. The system I mentioned in my 
written comments, ACE, now, the price tag on that system is 
$1.5 billion. It is serious money, but we are very grateful 
that it appears that in the 2001 budget we will be getting $130 
million toward that project, but it is something that is 
critically needed.
    So we need a much better information system, and we need 
more personnel to run the systems. We need nonintrusive 
technology. We mentioned we have some of it on the border. We 
do not have enough of it, and we certainly do not have enough 
of it in our port of entry.
    So I cannot give you a dollar figure, but it will be 
substantial.
    Senator Hollings. Have you had a chance to observe the Port 
of Rotterdam's, scanner, or the X-ray equipment there?
    Mr. Kelly. No, sir. I have heard a lot about it. I have 
read about it.
    Senator Hollings. How about Admiral Loy? Have you observed 
it?
    Admiral Loy. Yes, sir, I have seen it, and that is exactly 
why I think the Commission was so enthralled with the thought 
process that to some degree technology could really help us 
here, thus the recommendation associated with the full 
development of a plan on where technological devices can help.
    Senator Hollings. We could have the Rotterdam security 
model at each one of these significant ports at least, the 12 
ports that you all examined and everything else. We could at 
least have that equipment as soon as possible at those ports 
and then at all ports of entry, just like we have a scanner at 
every airport that you might land and come into.
    Admiral Loy. Yes, sir. The thrust of the model port concept 
is to sort of design, if you will, the generic port that would 
meet security specifications that we would like to see in all 
of our ports, knowing full well that any port of the 361 or so 
that we have in this Nation, and certainly the strategic ports, 
those 17, have local peculiarities.
    Some of them are break-bulk ports, some of them are 
container ports, some of them are both. We need not only to 
have a model port threshold of security that we are trying to 
insist upon across the full Nation, but also to take into stock 
the local peculiarities and challenges in any given single 
port.
    The other thought that I would like to offer, sir, is, as 
Mr. Nagle suggested, it is enormously important for us to be 
collaborative with private industry, with the port authorities 
locally, with labor, and with everyone, and that is the thrust 
of the Interagency Committee on the MTS, working the federal 
issues together, the National Advisory Council seeking for the 
Secretary counsel from private industry, and then matching them 
up with local security committees or harbor safety committees.
    The name almost does not really matter, but the thrust of 
having that same coordination happening at the local port, and 
fitting those things in between, making certain that there is 
collaboration in between, that is the design, and that is what 
we are working on, sir.
    Senator Hollings. There is no question that the state ports 
are operating the ports at the present time, or Commissions at 
the state and local levels. They have got the best knowledge. 
They have got the responsibility now.
    But as Mr. Nagle has testified, overall border security is 
a federal responsibility, so in trying to install that system, 
it has got to be done in a judicious fashion and worked out 
with the local authorities.
    Admiral Loy. And we welcome the leadership role you have 
offered us on that.
    Senator Hollings. Does any member of the panel want to add 
anything? I am going to leave the record open with respect to 
questions of the members. We have got about five other things 
going on. We are winding up supposedly this week and going at 
least till next week, but is there any other further comment 
from any of you?
    [No response.]
    Senator Hollings. Well, we appreciate very much your 
presentations here this morning and your help with the report, 
and particularly Mr. Nagle and Mr. Tousseau for coming also, 
because they have got to be included in this particular 
endeavor.
    The Committee will be at ease. Thank you very much.
    [Whereupon, at 10:45 a.m., the Committee adjourned.]
                                Appendix

Prepared Statement of Edward Wytkind, Executive Director Transportation 
                       Trades Department, AFL-CIO
    Chairman McCain, Ranking Member Hollings and Members of the 
Committee, on behalf of the Transportation Trades Department, AFL-CIO 
(TTD) and our 30 affiliated unions (see attached), I want to thank the 
Committee for giving us this opportunity to share our views on the 
report of the Interagency Commission on Crime and Security in United 
States Seaports. My name is Edward Wytkind. I am the Executive Director 
of TTD whose affiliated unions represent several million workers 
employed in all areas of the nation's transportation system including 
several thousand who work in our nation's ports. I am pleased to join 
the International Longshore & Warehouse Union (ILWU) and International 
Longshore Association (ILA) to offer the views and concerns of 
transportation labor on the issues affecting security at our nation's 
seaports.
    Today our ports serve as the gateway through which products and 
goods are imported to, or exported from, the nation. America's ports 
handle over 95 percent of the volume and 75 percent of the value of 
cargo moving into and leaving the nation. There can be little doubt 
that American ports and their employees have had a clear role in 
spurring job creation and providing substantial benefits to the economy 
as a whole. These economic benefits to the nation make protecting the 
integrity of our ports and stopping the influx of illegal drugs a 
worthy goal that transportation workers support. As an organization 
dedicated to promoting a safe and drug free workplace, our members 
expect nothing less.
    We agree with the statements of the ILWU and ILA that longshore 
employees and their unions are in a unique position to help address the 
problems of crime and security at our nation's ports. Our members are 
in the line of fire for criminal activities occurring at our ports. As 
such, we are more committed than anyone to ensuring that our ports and 
surrounding areas are safe, secure and free of criminal activities. 
Transportation labor does not condone illegal activities of any kind 
taking place in our seaports. We believe that the protection of port 
cargo, passengers, and facilities from theft, terrorism, and criminal 
activity is critical to our members and the nation as a whole.
    For that reason, longshore workers and their unions have been at 
the forefront of advocating programs that are designed to create a safe 
and drug-free workplace. ILWU's alcohol and drug prevention and 
rehabilitation program has even won recognition from former President 
Bush's ``Thousands Points of Light'' initiative. Additionally, 
longshore workers have played a critical role in promoting U.S. 
national interests and security at our ports by supporting the 
deployment and mobilization of the U.S. military. This has included 
maritime movements of equipment and troops in the course of offshore 
military operations.
    The important contributions of longshore unions in developing a 
safe and secure workplace provide a good starting point to review the 
findings of the Commission Report. TTD submitted comments to the 
Commission during its fact-finding process. Unfortunately, we have not 
had time to fully consider all the findings and recommendations made by 
the Commission. Over the coming months, however, we will be working 
with ILWU and the ILA to review the findings and recommendations and to 
determine the most appropriate federal measures. One issue I should 
mention is one that we raised in our comments dealing with criminal 
background checks. We register our strong objections to any proposal to 
impose extensive and unnecessary criminal backgrounds checks on all 
port workers and related employees, even those who have worked in this 
industry, often for single employers, for 20 or more years. These types 
of proposals have been offered previously and they have been rejected 
by Congress.
    The Commission Report identifies internal conspiracies, which may 
include port employees, as presenting a serious challenge to drug 
interdiction efforts at seaports. We understand that there will always 
be individuals who carry out or participate in criminal activities in 
our industry. And as we have already stated, we do not condone nor 
defend such conduct. However, other than anecdotal evidence, it has 
never been clearly shown that longshore workers--including those with 
impeccable records over decades of employment--have any greater 
likelihood of engaging in illegal conduct than other persons dealing 
with or reviewing the cargo as it moves through our transportation 
network. Furthermore, in today's intermodal transportation marketplace, 
the vast majority of cargo moves from the vessels and to gates of 
terminals in sealed containers, whose contents are secure. As such, 
there is no sensible reason for instituting these background checks on 
the overwhelming majority of honest, hardworking workers who are 
employed at our ports and who do not pose a legitimate safety or 
security threat.
    Mr. Chairman, this appears to be a case of a solution in search of 
problem. We are adamant that such a ``solution'' would have negative 
consequences for workers and other interests in the longshore industry. 
While we have been vocal opponents of this proposal, other groups have 
also raised concerns about the feasibility of sweeping criminal 
background checks. A number of the nation's ports are opposed to 
criminal background checks such as the Port of Los Angeles, Port of 
Seattle, and Port of Tacoma. This growing consensus in the longshore 
industry against criminal background checks should give all 
policymakers reason for pause and reevaluation.
    Let me also comment on legislation (S. 2965) introduced by Senator 
Ernest Hollings that incorporates some of the recommendations of the 
Commission. We commend Senator Hollings for his aggressive commitment 
to addressing seaport security issues, but it is our view that this 
legislation needs more input from key stakeholders including 
transportation labor and deserves more careful and deliberate 
evaluation. We have grown accustomed to a close working relationship 
with Senator Hollings on a number of transportation safety and security 
issues and know that the Senator welcomes our rightful place at the 
table.
    We would argue that any legislation considered by Congress should 
recognize the unique skills and talents of longshore workers and the 
ability of these front-line employees to play a vital role in 
addressing security concerns at our nation's ports. In so doing, the 
Congress will recognize the need for cooperation and partnership 
between longshore unions, port authorities, the ocean shipping industry 
and appropriate federal agencies in considering the issues raised by 
the Commission report. Only then, will we have a chance to adopt fair 
and meaningful measures that work.
    In closing, I want to thank you Mr. Chairman and all the Members of 
this Committee for giving us this opportunity to discuss port security 
issues. TTD, along with ILWU, the ILA and the International Brotherhood 
of Teamsters, will continue reviewing the various findings and 
recommendations of the Commission and will provide to the Committee 
additional input and information at a later time.
    We look forward to working with the Committee, Congress, and the 
appropriate federal agencies to address the concerns identified by the 
Commission and to make our ports safer and more secure for workers, 
businesses and the American people.
    Thank you.
    Attachment
                                 ______
                                 
TTD Affiliates
The following labor organizations are members of and represented by the 
        TTD:
    Air Line Pilots Association
    Amalgamated Transit Union
    American Federation of State, County and Municipal Employees
    American Federation of Teachers
    Association of Flight Attendants
    American Train Dispatchers Department
    Brotherhood of Locomotive Engineers
    Brotherhood of Maintenance of Way Employes
    Brotherhood of Railroad Signalmen
    Communications Workers of America
    Hotel Employees and Restaurant Employees Union
    International Association of Fire Fighters
    International Association of Machinists and Aerospace Workers
    International Brotherhood of Boilermakers, Blacksmiths, Forgers and 
Helpers
    International Brotherhood of Electrical Workers
    International Brotherhood of Teamsters
    International Longshoremen's and Warehousemen's Union
    International Union of Operating Engineers
    Marine Engineers Beneficial Association
    National Air Traffic Controllers Association
    National Association of Letter Carriers
    National Federation of Public and Private Employees
    Professional Airways Systems Specialists
    Retail, Wholesale and Department Store Union
    Service Employees International Union
    Sheet Metal Workers International Association
    Transportation   <bullet> Communications International Union
    Transport Workers Union of America
    United Mine Workers of America
    United Steelworkers of America

June 2000

                                <greek-d>

</pre></body></html>
